<html>
<title> - VOICE OF VETERANS OF THE AFGHAN WAR</title>
<body><pre>[Senate Hearing 111-266]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-266
 
                  VOICE OF VETERANS OF THE AFGHAN WAR 

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 23, 2009

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

54-698 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


















                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       Republican Leader designee
BARBARA BOXER, California            BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JOHNNY ISAKSON, Georgia
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   JIM DeMINT, South Carolina
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
JEANNE SHAHEEN, New Hampshire        ROGER F. WICKER, Mississippi
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        

  
















                            C O N T E N T S

                              ----------                              
                                                                   Page

Bacevich, Andrew, Colonel, U.S. Army (Ret.), Professor of 
  International Relations and History, Boston, University, 
  Boston, MA.....................................................    20
    Prepared statement...........................................    22
Chase, Genevieve, Veteran, Staff Sergeant, U.S. Army Reserve, 
  Recipient of the Purple Heart, American Women Veterans, 
  Alexandria, VA.................................................     4
    Prepared statement...........................................     7
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3
McGurk, Christopher, Staff Sergeant, U.S. Army (Ret.), Recepient 
  of Combat Infantryman's Badge, Two Bronze Stars, and the Purple 
  Heart, New York, NY............................................    13
    Prepared statement...........................................    15
Moore, Westley, Captain, U.S. Army (Ret.), Baltimore, MD.........    16
    Prepared statement...........................................    19
Reyes, Rick, Corporal, U.S. Marines (Ret.), Los Angeles, CA......     9
    Prepared statement...........................................    12

                                 (iii)

  


                  VOICE OF VETERANS OF THE AFGHAN WAR

                              ----------                              


                        THURSDAY, APRIL 23, 2009

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:18 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Feingold, Cardin, Shaheen, 
Kaufman, Lugar, and Corker.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. This hearing will come to order. Delighted to 
welcome our witnesses and my colleagues to this important 
hearing.
    Earlier this week, I was invited by a group of Harvard 
Business School about-to-be graduates and first-year students, 
but all of whom are veterans of Iraq and Afghanistan. And I was 
struck by what a smart and accomplished, capable, as we used to 
say, squared-away group of young people I was talking to, with 
strong opinions, strong views about policies, about life. And 
they had earned it. And it underscored my personal belief about 
the degree to which military service instills strong leadership 
skills.
    What also struck me was the fact that we are living the 
lessons learned over the past 40 years about how we regard 
veterans. We're all standing on common ground now. We're saying 
thank you to the soldiers, sailors, airmen, and marines who 
have served. We are not confusing a war with the warriors. And 
I want to thank each and every one of you for your service to 
our country and for those who are still serving.
    Today, we want to hear your views of the conflict in 
Afghanistan. We are, as you all know, just completing a review. 
We're going through a process of trying to fine-tune this 
policy, if it is fine-tunable. And that's something we need to 
examine. We want to understand the challenges from the 
perspective of the men and women who have been fighting there, 
risking their lives, and suffering the losses that come with 
war.
    We want you to help us understand the definition of what is 
achievable, and perhaps even help us to define the notion of 
success and victory. We want to honor your service and 
demonstrate our appreciation for the sacrifices that you and 
other families have made.
    History proves that soldiers on the ground have an intimate 
knowledge that is vital to their commanders and to us, as 
policymakers. Most recently, it was soldiers who sounded the 
early warnings that our mission in Iraq had some problems. It 
was soldiers in Anbar province who saw the major political 
opportunity to reconcile with the sheikhs, because they found 
that on their patrols and in their dealings and interactions on 
a firsthand basis. Soldiers know the challenges, up close and 
personal, and we're eager to hear and to learn from the 
insights of this generation of young warriors who have served 
with honor and professionalism in Afghanistan and elsewhere.
    I made a promise to myself long ago that I would not 
compare all conflicts to the Vietnam war. And that sort of 
analogy by history can be very unproductive. More importantly, 
it can divert us from developing the right policy for a current 
conflict.
    What we need to do, and the reason the witnesses are here 
today, is address the intricacies and nuances of Afghanistan 
from every angle. That does not mean, however, that there 
aren't some parallels between wars. Once again we are fighting 
an insurgency in a rural country with a weak central 
government. Our enemy blends in with the local population and 
easily crosses a long border to find sanctuary in a neighboring 
country. Our efforts to win the loyalty of the locals are 
hampered by civilian casualties and an inability to deliver the 
security that we promised more than 7 years ago. We ignore 
those similarities at our peril.
    There are also fundamental differences. We have a 
responsibility to the men and women fighting in Afghanistan to 
understand those differences and to adapt to them. First and 
foremost, North Vietnamese never posed a direct threat to our 
country. The extremists we are fighting today, however, in 
Afghanistan and across the border in Pakistan, do represent, 
and have, in fact, implemented, a direct threat to the security 
of the United States. They planned the attacks on New York and 
Washington that killed 3,000 Americans. They have killed 
hundreds of other innocents in terrorist attacks worldwide 
since then, and they are preparing new attacks on the United 
States and our interests even as we sit here today.
    Our original goal in Afghanistan was to go after those 
individuals. We were determined to capture or kill Osama bin 
Laden and eliminate al-Qaeda's base of operations so that they 
could never again attack the United States. Our attention 
strayed from that goal, and our enemies took advantage of our 
mistakes. Now the Obama administration is attempting to 
redefine and narrow the mission, embracing objectives closer to 
those original goals. We are bolstering the American forces in 
Afghanistan to protect the citizens and to train the Afghan 
police and army.
    We recognize that no solution is possible without a strong 
alliance with Pakistan. In some ways, Pakistan represents an 
even greater threat today, so we will increase aid to Pakistan 
and support its democratic government. But, obviously we've 
seen, in recent days, the challenges to that government are 
growing. And, in the end, the fight there is not ours to 
determine the outcome; it is theirs. The Pakistanis have to 
determine how deeply they are committed to their own 
government; their own country.
    We are no longer offering either country a blank check. We 
will set strict standards for measuring progress against al-
Qaeda and the Taliban, and we will do our best to see that they 
are met.
    So, let me be clear, there is much still to be done in 
Afghanistan and Pakistan. But, our new focus creates a sense of 
determined optimism for us and for our coalition allies, 
though--and that is part of the purpose today--that strategy 
has to be put to the test. And we look forward to your 
evaluations. Better defined objectives should lead to a better 
battle plan for our troops, but this remains an immensely 
complicated task, one that leaves our troops simultaneously on 
the front lines of the struggle against extremists and in the 
absolute middle of nowhere.
    Sitting on a mountain ledge in a helicopter during a 
snowstorm in Afghanistan last year with then-Senator Biden and 
Senator Hagel drove that home to all three of us. We are asking 
our young men and women to be warriors at one moment, but then 
mayors, dispute/conflict-resolution experts, anthropologists, 
and builders, and then warriors again. You and your colleagues 
have carried out these difficult and contradictory tasks with 
remarkable competence and courage, and our job this morning is 
to listen and learn from your perspective.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, I join you, Mr. Chairman, in welcoming 
this distinguished panel of members of the armed services who 
have served our country in combat.
    As President Obama launches a new initiative in Afghanistan 
and the Congress prepares to consider his request for funding 
operations in the region, it's important that we hear from many 
different perspectives about the way forward.
    I've benefited enormously from talking to many Hoosiers who 
have served in Iraq and Afghanistan since 2001, both in the 
regular military and as members of the National Guard and 
Reserves.
    Since September 11, 2001, 13,000 Hoosier National Guard 
personnel have been deployed in defense of our country. 
Currently, more than 100 Guardsmen from Indiana are mobilized 
in Afghanistan alone. Some 20 Hoosiers have lost their lives in 
that conflict.
    President Obama has elevated the priority of the 
Afghanistan mission, and the September 11 attacks were planned 
in Afghanistan. Al-Qaeda still operates there. The fate of the 
country remains both strategic and symbolic.
    As the Obama administration devotes more resources and 
troops to Afghanistan, however, many details need to be fleshed 
out. Eyewitness accounts of battlefield conditions may be very 
valuable in evaluating the administration's plans. Equally 
important are insights about the views and capabilities of the 
Afghan people, who ultimately will have to rebuild their 
country and provide for political stability.
    I think that Americans across the political spectrum agree 
that the situation in Afghanistan cannot be solved by military 
means alone. Multiple reviews of our policy have concluded that 
up to 80 percent of the activities necessary in post-conflict 
and counterinsurgency situations are civilian tasks. Success in 
Afghanistan may depend on the attitudes of the people, progress 
of reconstruction, the development of the economy, as much as 
it depends on battlefield victories. In the end, sustainable 
peace and progress is dependent upon Afghan determination to 
achieve for themselves a cohesive society.
    I look forward to hearing the testimony of our honored 
witnesses, and I thank you, Mr. Chairman, for calling this 
hearing.
    The Chairman. Thank you so much, Senator Lugar.
    Let us turn now to our witnesses. And again, let me say how 
much we appreciate your willingness to come here and share your 
experiences and your insights. Some of you have come a long 
way; in the case of Rick Reyes, you've come all the way from 
Los Angeles, and we appreciate that.
    The first person to testify will be Genevieve Chase, a 
staff sergeant in the U.S. Army Reserve, who spent 3 years on 
Active Duty and received a Purple Heart in Afghanistan. 
Following Ms. Chase will be Rick Reyes, a former corporal in 
the Marine Corps, who was one of the first American soldiers 
into Afghanistan in October 2001, and he also served in Iraq. 
Mr. Reyes will be followed by Chris McGurk, whose 10 years of 
service in the Army included tours in Afghanistan and Iraq, and 
earned him two Bronze Stars and the Combat Infantryman Medal. 
And Wes Moore is a former paratrooper and Army captain, who 
served as an information and special operations officer with 
the 82d Airborne in Afghanistan, and he will round out the 
veterans of Afghanistan who will testify.
    Then, finally, we will hear from one of my constituents, a 
distinguished student of conflict and war and of the region, 
and a professor. He is Andrew Bacevich. Andrew is a professor 
at Boston University. He's a prolific writer on war and issues 
of foreign policy. He is also a veteran of Vietnam, himself. 
And I should add that his son, Andrew, gave his life for our 
country in service in Iraq in 2007.
    So, we are deeply grateful for all of you being here today. 
Thank you.
    Genevieve.

  STATEMENT OF GENEVIEVE CHASE, VETERAN, STAFF SERGEANT, U.S. 
  ARMY RESERVE, RECIPIENT OF THE PURPLE HEART, AMERICAN WOMEN 
                    VETERANS, ALEXANDRIA, VA

    Sergeant Chase. Senator Kerry, Ranking Member Lugar, and 
members of the committee, thank you for allowing me the 
opportunity to share with you my testimony.
    My name is Genevieve Chase, and I served with the U.S. Army 
in Afghanistan during Operation Enduring Freedom in 2006 as a 
Pashto-language-trained soldier. During my 40 weeks of cultural 
and language training, our teacher made it very clear to us 
what his hopes and goals were for his students; namely, that we 
utilize our knowledge and skills for the good of the Afghan 
people.
    Afghans remember their history well, and have not forgotten 
that we left their country without any foundation following the 
defeat of the Soviet Army. The Afghans fully believe we, the 
Americans, will do it again.
    It is not too difficult to ascertain why, despite our 
intentions and efforts, fiercely nationalistic Afghans continue 
to believe that we are an occupying force. We went boldly in 
their country, planned and carried out our operations, and then 
retreated to the safety of our fortified and guarded compounds 
before sundown.
    Along with our coalition partners, we threw billions of 
dollars at civil affairs and reconstruction projects that we 
thought would win the ``hearts and minds'' of the Afghans while 
we empowered a local government in which many local Afghans 
believed contained nepotistic and corrupt officials.
    With the help of these same embezzling officials, we 
supported, and continue to support, the eradication of their 
rival tribe's poppies while failing to provide alternative 
crops to the poorest of farmers. We forced the farmers and drug 
lords to align with the Taliban and al-Qaeda in order to 
protect their livelihoods while we surged in and out of 
volatile areas. We continue to make hollow promises and put 
those that would assist us, at risk of death by the hands of 
the enemy, for the very act of agreeing to work with us. We 
provide them with little, if any, security against those that 
would oppress them.
    The best of the Afghan village elders and leaders have 
three choices. One, voice and defend the interests of their 
constituents and face beheading or worse. Two, flee their homes 
and country in order to live and protect their families. Or, 
three, play to the interests of whomever is in their village at 
the moment, hoping to play both sides and not be killed by 
either.
    I will never forget speaking to a respected village elder, 
one of the few we trusted in the remote area of Helmand 
province, who felt that there was nothing more he could do to 
save his people but make the dangerous trip from the mountains, 
under the fear of Taliban reprisal, to appeal to the Americans 
and ask for assistance in pushing the Taliban out from his 
village. He left our Provincial Reconstruction Team, defeated 
and without hope.
    How do we create the stability that will allow for 
legitimate elders and leaders to govern without fear? The 
answer to this question lies in yet another: What have we done 
wrong, and what lessons have we learned from our mistakes? Just 
as Lieutenant Backsight Forethought in the classic military 
text, ``The Defence of Duffer's Drift,'' had seven dreams in 
which he was able to analyze each tactical battle, we have had 
8 years in which to do the same.
    Unfortunately, due to the strains on our forces, we not 
only rotate out divisions and brigades, but we piecemeal units 
that have not trained together and have little to no 
operational experience in the Afghan theater. Most 
significantly, in a culture where a man's trust and respect is 
earned with time, loyalty, and devotion to the cause, we rotate 
out units every 6 to 12 months. We then ask our Afghan 
counterparts to give the same hard-won trust we earned and 
nurtured over time, to perfect strangers.
    With each rotation, just as Lieutenant Forethought did with 
his reoccurring dreams, we have had to start from the beginning 
to build and cultivate those working relationships again, but 
not always with the same amount of background experience and 
knowledge of the complexities and intricacies of the Afghan 
culture.
    The question is not whether an influx of troops will be 
effective or seen as an occupation, but how do we effectively 
utilize those additional troops? The way in which we do so will 
cultivate how the Afghans perceive our intentions. The concept 
of the Provincial Reconstruction Teams was altruistic, but 
their application has been hindered by a number of issues, all 
secondary to the lack of security.
    Why build schools, provincial centers, bridges, and wells 
when there is no support or security provided for the villagers 
to utilize them? They become little else but targets for the 
opposition.
    My first recommendation is that we push our troops out to 
an even more local level. Rather than Provincial Reconstruction 
Teams, we establish District Security and Reconstruction Teams 
(DSRT) within and among the villages, working in conjunction 
with village elders. These DSRTs would provide a safe haven for 
the people, rather than the enemy, and in turn, Afghans would 
maximize the information operations campaign through the 
development and sustainment of progressive and prosperous 
communities.
    In order to do this, we start as we did in 2001, supporting 
the Afghans with centralized strategic victories, then 
spreading out from there while maintaining our ground and 
assisting the Afghans in providing their own security by living 
and serving among them.
    Second, we allow individual troops to extend their tours, 
if requested, so that we may apply expertise and continuity to 
rotating troops. At the very least, we rotate out cohesive 
divisions and brigades within, not only the same theater, but 
the same area of operations.
    Furthermore, we cultivate our own organic assets to include 
our linguists, analysts, and soldiers with Afghanistan, 
asymmetric, and/or counterinsurgency experience, and engage 
them in a focused and concentrated force, armed not just with 
weapons and ammunition, but the power of knowledge, experience, 
and wisdom.
    Third, we support the Afghans in rooting our corruption and 
establishing secure and stable environments for which they can 
regain the pride they have for their country rather than 
supporting corrupt officials as they work their own agendas and 
line their own pockets. We should encourage our coalition 
partners to purchase poppy yields, giving the money directly to 
the farmers rather than to corrupt district government 
officials, while providing alternative crops to grow and safe 
markets in which to facilitate commerce.
    These thoughts are just the beginning of what must a 
multifaceted and enduring effort on the behalf of all involved. 
As I stated previously, Afghanistan's diversity in culture and 
geography demand that we embrace a comprehensive and intimate 
understanding of the nation's issues. Broad and generalized 
tactics, as we have applied in the past, will not work in every 
village of Afghanistan. Cultivating our homegrown experts by 
allowing them to provide continuity and confluence of 
operations through their learned knowledge, and, moreover, in-
depth network of interpersonal relationships, are tantamount to 
mutual respect and eventual success.
    Just as the enemy has adapted to our tactics, we must get 
away from the big-army mentality and do the same. In time and 
within an environment in which schools will not be burned and 
bridges blown up, the Afghans will have safe access to 
employment and education. When this happens, we will begin to 
see the possibilities of a country free from radical and 
rampant extremism, where adults will be able to provide for 
their children, and their children will be free to attend 
schools.
    One day, this generation of children in Afghanistan will be 
better prepared to take the reins of their country from their 
parents, and will grow with the memory of war rather than the 
daily reality of it.
    I thank you for the opportunity to testify here before the 
committee today, and look forward to your questions.
    [The prepared statement of Sergeant Chase follows:]

   Prepared Statement of Genevieve Chase, Staff Sergeant, U.S. Army 
   Reserve, Recipient of the Purple Heart, American Women Veterans, 
                             Alexandria, VA

    Senator Kerry, Ranking Member Lugar, and members of the committee, 
thank you for allowing me the opportunity to share with you my 
testimony. My name is Genevieve Chase and I served with the U.S. Army 
in Afghanistan during Combined Joint Task Force-76, Operation Enduring 
Freedom, 2006. I deployed as a member of a military intelligence team 
and was trained in the Pashto language. Forty weeks of Pashto language 
training was not merely about learning the language but involved 
gaining an understanding of the history, culture, and the people of 
Afghanistan. Our teacher made it very clear to us what his hopes and 
goals were for his students; namely that we would utilize our knowledge 
and skills for the good of the Afghan people. He believed in the 
mission that we had set out to accomplish in Afghanistan and he hoped 
for a peace in his former homeland. He not only taught us language and 
history, he provided a window into the heart of one Afghan man. Afghans 
remember their history well and have not forgotten that we left their 
country without any foundation in which to rebuild their devastated 
land following the defeat of the Soviet Army. When I had the unique 
opportunity to speak with the Afghans in their language, they were 
grave in telling me that we, the Americans, would do it again.
    I had great hopes when I left for Afghanistan, some of which were 
entrusted to me by my Afghan teacher. Of these was the possibility that 
one day I would see the children of Afghanistan live without knowing 
suffering, fear, and death. What I saw, heard, and felt when I got 
there was a palpable desperation of a people living in abject poverty 
and indescribable fear. I returned home with memories that will haunt 
my dreams for a lifetime and with the harsh and sobering realization 
that to the Afghan people and their children, my nightmares are their 
daily reality. It is because of my unwavering hope for the Afghan 
people that I feel compelled to ask some very important questions of 
the leaders in my country, questions that were asked of me, an American 
soldier, by the Afghans with which I had the honor to serve with.
    If we say that we are there to help the Afghans and we want them to 
believe us, why do we not truly listen to them? Afghan culture is by 
far one of the most complex that I have ever been exposed to. 
Understanding it requires more than a
45-minute briefing from someone who may have read about it. Even a 40-
week, full-time language course taught by a native Afghan is not going 
to give one a comprehensive understanding of what it means to work 
among and with Afghans, especially when considering the vast 
differences in tribal cultures. In my opinion, this is one area in 
which I believe that we have wavered in our commitment to the Afghans 
and to the future of their country. In so doing, we have also failed 
every American and coalition soldier that has given his/her life in 
Operation Enduring Freedom. By not honoring the Afghan culture and 
acknowledging their history, we have not only failed in laying the 
foundations for a secure and stable environment but we have failed in 
building sustainable economic growth, both ideal end-states necessary 
so that we may bring all of our troops home. In nearly 8 years of this 
conflict, we have failed to fully assess and evaluate the culture of 
the Afghans which will prevent us from winning this conflict.
    It is not too difficult to ascertain why, despite our intentions 
and efforts, that some Afghans continue to believe that we are an 
``occupying force.'' We went boldly into their country, planned and 
carried out our operations and then retreated to the safety of our 
fortified and guarded compounds before sundown. The very basics of all 
human needs, according to unadulterated common sense and supported by 
the theory of Maslow's Hierarchy of Needs, consists of the 
physiological needs that all humans must fulfill in order to survive: 
Food, water, and shelter. On the next level exists the need for 
security and community, a sense of safety. A society cannot flourish 
without those basic foundations with which to build structural supports 
that encourage the growth of a stable and viable economy. Along with 
our coalition partners, we threw billions of dollars at civil affairs 
and reconstruction projects that we thought would win their ``hearts 
and minds'' while we empowered, supported, and protected a government 
in which many local Afghans believed contained nepotistic officials and 
corrupt provincial governments. With the help of these same embezzling 
officials we supported and continue to support the eradication of their 
rival tribe's poppies while failing to provide alternative crops to the 
poorest farmers.
    We forced the farmers and ``drug lords'' to align with the Taliban 
and al-Qaeda in order to protect their livelihoods while we surge in 
and out of volatile areas. We have continued in making promises, asking 
and sometimes demanding cooperation only to leave those that would 
assist us to the fate of death by the hands of the enemy for the very 
act of agreeing to work with us.
    The best of the Afghan village elders and leaders have three 
choices:

          1. Voice and defend the interests of their constituents but 
        face beheading or worse;
          2. Flee their homes and country in order to live and protect 
        their families; or
          3. Play to the interests of whomever is in their town at the 
        moment hoping to play both sides and not be killed by either.

    I am not speculating about what may occur in Afghanistan; these 
assessments are based on my firsthand observations and those of my 
comrades. I will never forget speaking to a respected village elder, 
one of the few we trusted in the remote area of Helmand province, who 
felt that there was nothing more he could do to save his people but 
make the dangerous trip from the mountains under fear of Taliban 
reprisal, to appeal to the Americans and ask for assistance in pushing 
the Taliban out from his village. However, he left our Provincial 
Reconstruction Team defeated and without hope.
    How do we create this stability that will allow for legitimate 
elders and leaders to govern without fear? The answer to this question 
lies in yet another, ``What have we done wrong and what lessons have we 
learned from our mistakes?'' Just as LT Backsight Forethought, in the 
classic military text--``The Defense of Duffer's Drift'' had seven 
dreams in which he was able to analyze each tactical battle, we have 
had 8 years in which to do the same. Currently, we not only rotate out 
units but divisions and brigades. In Vietnam, we rotated in smaller 
replacement troops which at least gave a bit more continuity to the 
battlefield. Unfortunately, due to the strains on our forces, we 
piecemeal units that have not trained together and have little to no 
operational experience in the Afghan theater but most significantly, in 
a culture where a man's trust and respect is earned with time, loyalty, 
and a devotion to the cause, we rotate out units every 6 to 12 months. 
We ask our Afghan comrades and leaders to place the same trust in 
perfect strangers, that we spend priceless time earning. With each 
rotation, just as Lieutenant Forethought did with his reoccurring 
dreams, we have had to start from the beginning to build and cultivate 
those working relationships again.
    In addition, we put ourselves at a serious disadvantage when we 
send trained Pashto, Dari, and Farsi linguists to units going to Arabic 
speaking Iraq or put them into nondeploying units in Germany or Korea. 
These are our linguistic experts--they should deploy to their 
respective theaters. Likewise, we often send troops with two previous 
tours in one area of operations in which they are ``subject matter 
experts'' to work in areas of the world with which they are unfamiliar, 
and thus we lose not only their mentorship and training for junior 
soldiers, but their relevant and pertinent knowledge of the enemy.
    The question is not whether an influx of troops will be effective 
or be seen as an ``occupation'' but how do we effectively utilize those 
additional troops. The way in which we do so will cultivate how the 
Afghans perceive our intentions. Adding another 17,000 boots on the 
ground or even doubling that number has the potential to be as one 
fellow comrade put it, ``like applying a Band-Aid to a sucking chest 
wound.'' It is not how many more troops we add, but how we utilize 
those troops effectively. Afghanistan's population of over 33 million 
is dispersed throughout the country with concentrated areas in which 
International Security Assistance Forces and coalition troops hold 
large bases. In the more remote areas, we have established small 
Forward Operating Bases and even smaller Provincial Reconstruction Team 
compounds and firebases. Although the concept of the PRTs was 
altruistic, their application has been hindered by a number of issues, 
all secondary to the lack of security. What good sense does it make to 
build schools, provincial centers, bridges and wells when there is no 
support or security provided for villagers to utilize them?
    My first recommendations are that we push our troops out to an even 
more local level. Rather than Provincial Reconstruction Teams (PRT), we 
establish, at the minimum, District Security and Reconstruction Teams 
(DSRT) within and among the villages, working in conjunction with the 
village elders. These DSRTs would provide a safe haven for the people 
rather than the enemy and in turn, Afghans would maximize the 
information operations campaigns through the development of progressive 
and prosperous communities. In order to do this, we start as we did in 
2001, supporting the Afghans with small, strategic victories and from 
there spread out while maintaining our ground and assisting the Afghans 
in providing their own security by living and serving alongside them.
    Second, we allow individual troops and units to extend their tours 
if requested so that we may apply expertise and continuity to rotating 
troops. At the very least, we rotate out cohesive divisions and 
brigades within not only the same theater, but the same area of 
operations. Furthermore, we cultivate our own organic assets to include 
our linguists, analysts, and soldiers with Afghanistan, asymmetric and/
or counterinsurgency experience and engage them in a focused and 
concentrated force armed not just with weapons and ammunition, but the 
power of knowledge, experience, and wisdom.
    Third, we support the Afghans in rooting out corruption and 
establishing secure and stable environments for which they can regain 
the pride they have for their country rather than supporting corrupt 
officials as they work their own agendas and line their own pockets. We 
should encourage our coalition partners to purchase poppy yields giving 
the money directly to the farmers rather than to corrupt district and 
government officials, while providing alternative crops to grow and 
safe markets in which to facilitate commerce.
    These are not all of the answers but merely an evaluation of how we 
can leverage our assets, experiences, and capabilities in the theater. 
These thoughts are just the beginning of what must be a multifaceted 
and enduring effort on the behalf of all involved. As I stated 
previously, Afghanistan's diversity in culture and geography demand 
that we embrace a comprehensive and intimate understanding of the 
nation's issues. Broad and generalized tactics as we have applied in 
the past will not work in every corner of Afghanistan. Cultivating our 
``homegrown experts'' by allowing them to provide continuity and 
confluence of operations through their learned knowledge and moreover 
in depth network of interpersonal relationships are tantamount to 
mutual trust, respect, and eventual success. In addition, keeping 
subject matter experts and experienced commanders within the same area 
of operations while applying a flexible methodology will allow for a 
more tailored and applicable mission. Just as the enemy has adapted to 
our tactics, we must get away from the ``Big Army'' mentality and do 
the same.
    In time and within an environment in which schools will not be 
burned or bridges blown up, the Afghans will have safe access to 
employment and education. When this happens, we will begin to see the 
possibilities of a country free from radical and rampant extremism 
where adults will be able to provide for their children and their 
children will be free to attend schools. One day, this generation of 
children in Afghanistan will be better prepared to take the reigns of 
their country from their parents and will grow with the memory of war 
rather than the daily reality of it and they will carry within 
themselves the hope for enduring prosperity and peace for the future of 
Afghanistan.
    I thank you for the opportunity to testify here before the 
committee today and look forward to your questions.

    The Chairman. Thank you so much for your thoughtful 
testimony.
    Next is Rick.

  STATEMENT OF RICK REYES, CORPORAL, U.S. MARINES (RET.), LOS 
                          ANGELES, CA

    Corporal Reyes. First off, I want to thank Senator Kerry 
for giving me the inspiration of being here today. I sit here, 
38 years after you were expressing your opinions on the Vietnam 
war, and, similarly, want to express my opinions about this 
occupation.
    I also want to thank the members of the Senate Foreign 
Relations Committee for having me here.
    I also want to say that I love my country, and that is why 
I'm here today.
    My name is Rick Reyes. I am a veteran of both Operation 
Enduring Freedom and Operation Iraqi Freedom. I served with the 
United States Marine Corps as an infantry rifleman. We took an 
oath to defend this country, and that doesn't stop when we 
check in our rifles into the armory. We keep our country safe 
by telling people the truth. And doing that is just as scary as 
any ambush or mortar attack.
    I come from very humble beginnings. I am a son to both an 
immigrant father and mother from Mexico. I grew up in East Los 
Angeles in one of the roughest parts of town, known as Boyle 
Heights. Later, my family moved to southeast Los Angeles to 
escape the violence, but that wasn't far enough. As a kid, I 
always envisioned myself of one day fighting for my country and 
ensuring justice.
    Like most of my peers, when I was younger I got involved 
with the wrong crowd. After escaping a serious tragedy in my 
life, I knew the Marine Corps could provide me the opportunity 
to, not only serve my country, but to also straighten out my 
life by doing something honorable.
    On the night of the September 11 attacks, my battalion sat 
in port in Australia. It was sometime around midnight, and we 
were enjoying our off time at the local bars, when all of a 
sudden the music stopped and, over the PR systems, an 
announcement, heard that the United States was being under 
attack. We were all ordered to head back and aboard the ships. 
That night, we were told we were going to war with the Taliban 
and al-Qaeda forces.
    The next morning, we pulled out of port and for the next 
month, while the administration formulated a plan, we prepared 
to go to war, with the conviction of fighting for justice and 
the American way.
    Our mission was to locate and capture suspected members of 
the Taliban and al-Qaeda forces. Through my experience as an 
infantry rifleman, implemented past and current policy had 
found almost impossible to locate and capture the Taliban 
because there isn't any effective way to separate them from the 
innocent civilian population. Patrols were conducted through 
populated neighborhoods. The populations on those neighborhood 
streets weren't any different from the population on my street. 
There were kids running around and playing while we occupied 
their streets, mothers running behind after those kids, making 
sure they stay out of trouble and out of our way, and fathers 
trying to make a living for the little that they have.
    U.S.-hired translators would tell us where suspected 
Taliban or al-Qaeda would be found. We would follow their lead, 
often planning attacks and breaking into people's homes. Due to 
our training in fighting wars and killing enemy, we wouldn't 
enter these homes or situations quietly, but instead trained to 
fight with the vigilance of encountering death at every turn.
    Although we were on the hunt for suspected Taliban forces, 
at the end--at the end of it, we found that these dangerous 
missions resulted with very poor consequences by destroying 
innocent lives. We weren't fulfilling our objective of 
capturing terrorists, but instead creating enemies out of 
civilians.
    As a Marine trying to ensure justice, I began losing sight 
of why I was there, and the conviction began to fade. Because 
our mission was to capture suspected Taliban, and had no 
successful way of being able to distinguish them, we had no 
other choice but to suspect the entire civilian population, 
innocent or not.
    One day, we stopped at gunpoint, detained, beating and 
nearly killing an innocent man, only to find out he was just 
traveling down the road to deliver milk to his children. 
Because of that, that day those kids went without a father. 
There were hundreds of incidents like this one. Almost 100 
percent of the time, we would find that suspected terrorists 
turned out to be innocent civilians. We began to feel we were 
chasing ghosts, fighting an enemy that we could not see or that 
didn't allow itself to be seen. How can you tell the difference 
between the Taliban and Afghan civilians? The answer is that 
you can't. It all stopped making sense.
    Later, I found out that these translators were being 
compensated on the amount of intelligence they were able to 
provide. So, it was their incentive to provide as much 
intelligence as possible, without any way to know if the 
information being provided was false. It was such a flat 
system, but who was I to question authority?
    When I returned home, I felt that occupying Afghanistan and 
Iraq was a mistake. I strongly feel that the military 
occupation and intervention is not the answer. If it didn't 
work back in 2001, when we had all the energy, all our 
resources, but, most important, a very high troop morale, I 
asked myself, How could it work now?
    A lot of these men and women serving our country in the 
Armed Forces have been desperately worn and stretched out too 
thin by having them serve up to four tours overseas. If we 
aren't killing them on the ground due to a flat policy, we are 
definitely killing them in spirit, and that is--and that also 
has a very serious indirect consequence, when the fight is 
brought back home.
    I love my country. I never once, while I--while serving, 
did I feel I was protecting America. But, instead, we were 
harboring the worst of sentiments in these foreign Middle 
Eastern countries. We were creating more enemies.
    As a kid, I envisioned myself serving my country and 
fighting for freedom. But, when the opportunity presented 
itself, it was stripped from me, and, instead, I was forced to 
become a tyrant. I have--as I have experienced, our troops are 
also experiencing a very low morale, which oftentimes 
translates into high suicide rates.
    These are just a few of the issues. There is just a huge 
array of reasons why, at the minimum, this occupation needs to 
be rethought. We should not be sending any more troops into 
Afghanistan. As a combat troop, we are trained to isolate and 
destroy the enemy, cut off its resources. As an indirect 
consequence, we impose our Western views and alienate their 
culture and traditions. In some respects, this entire 
occupation has become counterproductive. As a Marine, I was 
willing to give my life for my country, and still am. But, 
invading and occupying Afghanistan, sending more troops to stop 
what is a political problem, is not the answer.
    I urge the Senators to rethink Afghanistan while there is 
still time. I can almost guarantee that sending more troops 
will mean more civilian and U.S. troop casualties, not for war, 
but for occupation. Sending more troops will not make the U.S. 
safer, it will only build more opposition against us.
    I urge you, on behalf of truth and patriotism, to consider 
carefully and rethink Afghanistan. More troops, more occupation 
is not the answer.
    Thank you.
    [The prepared statement of Corporal Reyes follows:]

 Prepared Statement of Rick Reyes, Corporal, U.S. Marines (Ret.), Los 
                              Angeles, CA

    First, I want to begin by thanking the members of the Senate 
Foreign Relations Committee for having me here today. Second, I want to 
say that I love my country and that is why I am here today. My name is 
Rick Reyes. I was a corporal in the U.S. Marines and served both in 
Afghanstan and Iraq. I grew up in east Los Angeles, in rough part of 
town. As a young man like many of my friends at the time, I got 
involved with gangs. Signing up for the military seemed a logical step 
for me to help straighten out my life, so I enlisted in the Marines.
    On the day of the U.S. attacks, September 11, I was stationed in 
Australia. That night my fellow marines and I were at the bars. All of 
a sudden the music stopped and over the PR system we heard the 
announcement that the U.S. was under attack. We were all ordered to get 
back on the ship. We were told a couple of days later that we were 
going to Afghanstan to fight the Taliban. All the marines, including 
myself were totally ready to fight the enemy.
    Our mission was to locate and capture suspected members of Taliban. 
Missions were all done at night. U.S.-hired translators would tell us 
where suspect Taliban or al-Qaeda would be found. We would follow their 
lead, often by breaking into people's homes. Because we were so pumped 
to find Taliban we would often rough up suspected terrorists. Sometimes 
we would break their hands, arms, legs, and mess up people's homes 
scaring women and children. Those missions were very dangerous because 
at times, family members would shoot us from the back. We lost several 
marines because they were shot in the back by scared Afghans. At the 
end, we found out that suspected terrorists were innocent civilians who 
were protecting their families, their homes--from us. In retrospect, if 
someone was breaking into my home, I would probably fire at us as well. 
We began creating enemies out of innocent civilians. I saw how Afghans 
began hating us. As a marine, I began loosing sight of why I was there.
    I remember one day, we stopped an Afghani civilian who was taking 
milk to his kids because he was suspected of being a terrorist. We beat 
him to submission to where he dropped his milk. God only knows if that 
was the first or last time his kids had milk in a long time or if his 
children were all hungry and waiting for him. Later we released him 
after finding out he was innocent. That day his kids went without 
milk--because of us. There were hundreds of incidents like this one. 
And they all tore at me over time.
    Almost 100 percent of the time, we would find that suspected 
terrorists turned out to be innocent civilians. I started to feel like 
we were chasing ghosts. How can you tell the difference between members 
of the Taliban from an Afghan civilian? The answer is that you can't. 
No one can. As marines, we did not know who was a civilian or a 
terrorist. It all stopped making sense. We were destroying people's 
homes and hurting Afghan civilians for no reason. Later I found out 
that translators were paid on the number of tips they provided, so it 
was their incentive to give us as many tips as possible, even if they 
were false. It was such a flawed system. This was not the American way. 
We were not fighting for justice. This was not the freedom I signed up 
for.
    By the time I left Afghanistan, I felt that the U.S. being there 
was a big mistake. I joined the military because I wanted to be a hero, 
and I feel that I was stripped of that opportunity and instead was sent 
to fight an enemy that we could never see. The entire time we were 
there, we were chasing ghosts. I feel strongly that military 
intervention is not the answer. I love my country and never once while 
serving duty in Afghanistan did I feel that we were protecting America. 
Instead we were harboring the worst of sentiments in a foreign country, 
we were creating more enemies. This is why I strongly believe that we 
should not be sending more troops to Afghanistan.
    As a marine, I was willing to give my life for this country; I 
still am. But invading Afghanistan, sending more troops to solve what 
is a political problem is not the answer: I urge the senators to 
rethink Afghanistan while there is still time. I can almost guarantee 
that sending more troops will mean more civilian and U.S. troop 
casualties, more homes being broken into, more children without food, 
more women without husbands. I encourage you to think of the cost of 
war on their country as well as ours. We have to rethink our mission. 
Sending more troops will not make the U.S. safer, it will only build 
more opposition against us. I urge you on behalf of truth and 
patriotism to consider carefully and rethink Afghanistan. More troops, 
more war, is not the answer.

    The Chairman. Thank you, Mr. Reyes. I appreciate it.
    [Applause.]
    The Chairman. Please, everybody.
    Mr. McGurk.

  STATEMENT OF CHRISTOPHER McGURK, STAFF SERGEANT, U.S. ARMY 
  (RET.), RECIPIENT OF COMBAT INFANTRYMAN'S BADGE, TWO BRONZE 
           STARS, AND THE PURPLE HEART, NEW YORK, NY

    Sergeant McGurk. I want to thank Chairman Kerry, Senator 
Lugar, and members of the committee, for inviting me here today 
and testify on behalf of my fellow veterans. I'm both honored 
and humbled.
    I'd like to say, first and foremost, that I believe, beyond 
a shadow of a doubt, that the United States should renew its 
commitment to Afghanistan and its people. I believed in this 
mission in 2004, and I firmly believe in it as I sit here 
today.
    Some pundits will argue that we may no longer be able to 
achieve any real measure of success in Afghanistan. I say to 
those critics that we must try and help stabilize a country 
that has been, for the most part, ignored ever since combat 
operations began in Iraq in 2003. Our continued inattention to 
Afghanistan, our drifting foreign policy in the region, and the 
fact that we have done little to stop the reemergence of the 
Taliban may very well solidify the resentment that the Afghan 
people have for the United States and the central Government of 
Afghanistan.
    We have one chance to get this right or face those--a real 
possibility of more terrorist attacks that rival those of 9/11 
on U.S. soil.
    I realize that many of the goals that we set forth for 
ourselves at the onset of the war may no longer be fully 
achievable, but we must try to stabilize and secure Afghanistan 
before it slips further into violence. My experience in these 
matters does not come from writing foreign policy; rather, the 
firsthand experience I gained while leading men in combat in 
two different countries and the interactions I had on a daily 
basis with those people of those countries.
    I'd like to illustrate, through personal experience, the 
two main reasons I believe that we should continue our mission 
in Afghanistan. These reasons are very different, but they 
serve to capture the complexity of issues taking place on the 
ground.
    The first reason was an interaction that took place while 
my platoon was conducting security operations for a Provincial 
Reconstruction Team. The PTR operated out of a firebase in 
Gardez, in Paktia province, and helped to build several schools 
in the areas. They were encouraging many of the local villagers 
to attend the opening ceremonies of all the different schools. 
On one particular mission, my squad was in charge of manning a 
checkpoint on the main road leading up to one school. The 
morning went by without incident, and were in the process of 
getting ready to return to the firebase when a village elder 
came up to me with a serious expression on his face. I prepared 
myself for potentially antagonist conversation, but was 
surprised when he began speaking softly in English.
    The conversation I had with him was short, but it was one 
that I will never forget. The man was a commander in the 
Mujahadeen and was wounded several times fighting the Russians. 
He lost both of his brothers to Soviet helicopter gunship raids 
and walked with a severe limp. He told me that he was worried, 
at first, when the Americans came to Afghanistan, but soon 
realized that we were here to help the Afghan people, not 
exploit them, and he expressed to me that we would not abandon 
Afghanistan again. He shook my hand and touched his heart out 
of respect, and was turning to leave, when he stopped, gave me 
the thumbs-up, and said America was good and just. He then 
turned and slowly walked away.
    I found myself at a loss for words as I stared at him. Here 
was a man, hardened by fighting the Soviet Army, who seemed to 
have lost everything in life, and yet had the faith--excuse 
me--had faith in a country and a people he did not know. He 
believed in the mission of the United States and the hope it 
gave to the Afghan people.
    This experience also served to compound the anger I felt 
when the mission in Afghanistan was neglected in favor of the 
mission in Iraq. Schools like the one built by the PRT stood 
empty and idle through what seemed to be a lack of funding for 
teachers, books, and other supplies. I felt as though the true 
objective of the mission was forgotten, and that the half-
completed school was one giant photo opportunity. The 
commitment to men like the village elder was forgotten, the 
promise only half fulfilled.
    The second and most personal reason took place on September 
29, 2003, while my company was stationed at a firebase in 
Shkin, in Paktia province, right on the Pakistani border. One 
mission my platoon had been--one afternoon, my platoon had been 
sent on a mission to reinforce another platoon currently under 
enemy small-arms and mortar fire. Upon reaching the platoon in 
contact, my squad dismounted to locate and destroy the enemy 
mortar tube. As my squad swept through the area, my lead team 
triggered a violent ambush that turned into a sustained 
firefight of more than 10 hours in duration. During the 
firefight, a 19-year-old, PFC Evan O'Neil of Haverhill, MA, was 
mortally wounded by an enemy sniper while protecting the 
squad's exposed flank. As a trained EMT, I moved to assist the 
medic while continuing to direct the fire of my squad.
    Upon reaching PFC O'Neill, he said to me, ``Sergeant, is 
the squad OK?'' I told him that the squad was hanging in there, 
and I told him not to worry, that I was going to get him out of 
there. He then said to me, ``I am sorry for letting you down.'' 
I told him that he didn't, and to hold on. The last words 
O'Neill ever spoke were, ``I'm sorry for letting you down.'' He 
was only 19 years old, yet he understood the mission was larger 
than himself. His last words were entirely selfless. I held 
Evans' hand and said the ``Our Father'' as he died.
    Excuse me.
    As I think back to that day, I understand the memory and 
courage of men like PFC O'Neill must be honored with a clear 
and coherent strategy to help the people of Afghanistan. We 
must defend the original mission, the one that was abandoned in 
favor of a misled strategy in Iraq, to protect the American 
people from terrorist threats and to ensure that O'Neill and 
others like him did not die in vain.
    I strongly believe in the mission in Afghanistan, combined 
with our efforts in Pakistan, was and is the true front on the 
war on terror, something I did not believe while fighting in 
Iraq.
    Senator Kerry, to this very committee in 1971, you spoke of 
men who have returned with a sense of anger and a sense of 
betrayal which no one has yet grasped. My own anger and sense 
of betrayal comes from the possibility that we may not come to 
a resolution in Afghanistan and that the blood that has been 
shed by the victims of 9/11, the Afghan people, and men like 
PFC O'Neill would be forgotten.
    Once again, I'd like to thank you for inviting me here to 
testify, and I truly am happy to see that troops are finally 
being listened to.
    [The prepared statement of Sergeant McGurk follows:]

  Prepared Statement of Christopher McGurk, Staff Sergeant, U.S. Army 
 (Ret.), Recipient of Combat Infantryman's Badge, Two Bronze Stars and 
                     the Purple Heart, New York, NY

    I want to thank Chairman Kerry, Senator Lugar, and the members of 
the committee for inviting me here today to testify on behalf of my 
fellow Veterans; I am both honored and humbled. I would like to say 
first and foremost that I believe beyond a shadow of a doubt that the 
United States should renew its commitment to Afghanistan and its 
people. I believed in my mission then and I firmly believe in it as I 
sit here today. Some pundits will argue that we may no longer be able 
to achieve any real measure of success in Afghanistan. I say to those 
critics that we must try and help stabilize a country that has been, 
for the most part, ignored ever since combat operations began in Iraq 
in 2003. Our continued inattention to Afghanistan, our drifting foreign 
policy in the region, and the fact that we have done little to stop the 
reemergence of the Taliban may very well solidify the resentment that 
the Afghan people have for the United States and the central government 
of Afghanistan. We have one chance to get this right or face the real 
possibility of more terrorist attacks that rival those of 9/11 on U.S. 
soil.
    I realize that many of the goals that we set for ourselves at the 
onset of the war may no longer be fully achievable, but we must try to 
stabilize and secure Afghanistan before it slips further into violence. 
My experience in these matters does not come from writing foreign 
policy; rather the firsthand experience I gained while leading men in 
combat in two different countries and the interactions I had on a daily 
basis with the people of those countries.
    I would like to illustrate through personal experience the two main 
reasons I believe that we should continue the mission in Afghanistan. 
These reasons are very different, but serve to capture the complexity 
of issues taking place on the ground.
    The first interaction took place while my platoon was conducting 
security operations for a Provincial Reconstruction Team (PRT). The PRT 
operated out of a firebase in Gardez, Paktia, province and had helped 
to build several schools in the area. They were encouraging as many of 
the local villagers to attend the opening ceremonies of the different 
schools. On one particular mission my squad was in charge of manning a 
checkpoint on the main road leading up to a school. The morning went by 
without incident and we were in the process of getting ready to return 
to the firebase when a village elder came up to me with a serious 
expression on his face. I prepared myself for a potentially 
antagonistic conversation, but was surprised when he began speaking 
softly in English.
    The conversation I had with him was short but it was one that I 
will never forget. The man was commander in the Mujahadeen and was 
wounded several times fighting the Russians; he lost both of his 
brothers to Soviet helicopter gun-ship raids and walked with a severe 
limp. He told me that he was worried at first when the Americans came 
to Afghanistan, but soon realized that we were here to help the Afghan 
people, not exploit them. He hoped that we would not abandon 
Afghanistan again. He shook my hand and touched his heart out of 
respect and was turning to leave when he stopped, gave me a thumbs up, 
and said that ``America was good and just'' He then turned and slowly 
walked away. I found myself at a loss for words as I stared at him. 
Here was a man hardened by fighting the Soviet Army, who seemed to have 
lost everything in life and yet he had faith in a country and a people 
he did not know. He believed in the mission of the United States and 
the hope it gave to the Afghan people.
    This experience also served to compound the anger I felt when the 
mission in Afghanistan was neglected in favor of the mission in Iraq. 
Schools like the one built by the PRT stood empty and idle through what 
seemed to be a lack of funding for teachers, books, and other supplies. 
I felt as though the true objective of the mission was forgotten, and 
that the half-completed school was one giant photo op. The commitment 
to men like the village elder was forgotten; the promise only half 
fulfilled.
    The second and most personal experience took place on September 29, 
2003, while my company was stationed at a firebase at Shkin in Paktika 
province, right on the Pakistani border. One mission my platoon had 
been sent to reinforce another platoon currently under enemy RPG and 
mortar fire. Upon reaching the platoon in contact, my squad dismounted 
to locate and destroy the enemy mortar tube. As my squad swept through 
the area, my lead team triggered a violent ambush that turned into a 
sustained firefight of more than 10 hours in duration. During the 
firefight, 19-year-old PFC Evan O'Neill of Haverhill, MA, was mortally 
wounded by an enemy sniper while protecting the squad's exposed flank. 
As a trained EMT, I moved to assist the medic while continuing to 
direct the fire of my squad. Upon reaching PFC O'Neill, he said to me, 
``Sergeant, is the squad OK?'' and ``I'm sorry for letting you down.'' 
I told him that the squad was hanging in and I told him not to worry, 
that I was going to get him out of there; those were the last words he 
ever spoke--``I am sorry for letting you down.'' He was only 19, yet he 
understood that the mission was larger than himself. His last words 
were entirely selfless. I held his hand and said the ``Our Father'' as 
he died. As I think back to that day, I understand that the memory and 
courage of men like PFC O'Neill must be honored with a clear and 
coherent strategy to help the people of Afghanistan. We must defend the 
original mission--the one that was abandoned in favor of a misled 
strategy in Iraq--to protect the American people from terrorist threats 
and to ensure that O'Neill and others like him did not die in vain.
    I strongly believe that the mission in Afghanistan was and is the 
true front in the war on terror, something I did not believe while 
fighting in Iraq. Senator Kerry--to this very committee in 1971, you 
spoke of ``men who have returned with a sense of anger and a sense of 
betrayal which no one has yet grasped.'' My own anger and sense of 
betrayal comes from the possibility that we may not come to a 
resolution in Afghanistan, and that the blood that has been shed by the 
victims of 9/11, the Afghan people, and men like PFC O'Neill would be 
in vain.

    The Chairman. Thank you so much. I appreciate your 
testimony very, very much.
    Mr. Moore.

    STATEMENT OF WESTLEY MOORE, CAPTAIN, U.S. ARMY (RET.), 
                         BALTIMORE, MD

    Captain Moore. Thank you very much. And I'd like to thank 
the entire committee for this time. And, Mr. Chairman, I'd like 
to specifically thank you for acknowledging the importance of 
hearing from junior officers and NCOs. I believe I speak for 
everyone on the panel, and the soldiers with whom we served, 
when I say that we appreciate the audience.
    In early 2005, I was working as a banker in London, and, 
less than a year later, I was deployed with the 1st Brigade of 
the 82d Airborne Division in Eastern Afghanistan. My good 
friend and a hero of mine, LTC Michael Fenzel, deputy brigade 
commander of a unit that I later joined, asked me if I'd be 
willing to leave the world of finance and to serve. A sense of 
duty to my oath as an officer, a sense of commitment to the 
troops I would lead, and a sense of loyalty to my friend who 
asked me to join him propelled me to leave my comfortable 
existence and spend 9 months in the border region of 
Afghanistan.
    Now, before deploying, I read extensively about the history 
of the region and sought counsel from those who I thought had 
any insight on the area. And within days of arriving in our 
area of operations, I realized nothing could have prepared me 
for some of the most trying, exhilarating, and heartbreaking 
days of my life.
    Iraq dominated the news cycle at the time. However, what I 
immediately learned was that the fight in Afghanistan was just 
as crucial and precarious, if not more, than Iraq. The terrain, 
the economic and educational conditions, its neighbors, two of 
which are nuclear-armed, the tribalism and Pashtunwali law that 
reigned supreme over any inclination of nationalism, the lack 
of basic services, such as electricity and clean water 
resources, and a plethora of other realities, make this 
conflict more complex than I could have ever imagined. But, my 
time in Afghanistan also made this war very real to me, and 
made getting it right very personal.
    The fighting was tough, and the kinetic operations are all-
encompassing. But, the main reason I was asked to serve as the 
director of information operations was to address the American 
strategic support plan for Program Takhim e Sol, which is the 
Afghan reconciliation program, which is also known as PTS. The 
Afghans, followed by the lessons of South Africa and Chile 
before them, aim to create a reconciliation program that 
allowed Afghans who were involved with al-Qaeda, HIG, the 
Haqqani network, and the Taliban, to turn in their weapons, 
pledge allegiance to the new Afghan Government, and return home 
to their families without fear of retribution or imprisonment.
    When my team arrived, eight people had PTS'd, or 
reconciled. Lieutenant Colonel Fenzel and the other senior 
leaders of my unit got it. They understood the basic premise 
that the more insurgents that we can convince to peacefully 
reconcile meant the fewer that we needed to make submit via 
force. We reevaluated our strategies and techniques to support 
the Afghans in this initiative. We created a program called the 
Afghan Public Relations Officers, or APROs, who are Afghans who 
worked with us to better tailor our messages and our reaction 
to the day's events. We stopped using broadcasts written by 
United States solders and simply read by translators, and 
altered, not only the messages, but the messengers, and 
recruited respected leaders, such as President--former 
President Mujadidi to better reach our targets. We stopped 
using leaflet drops in order to spread the word, because, with 
a population that has a literacy rate in the single digits, 
written materials were utterly ineffective. We broadcasted PTS 
success stories so that people who were on the fence knew that 
a safe alternative awaited them, and that the option of waiting 
for our forces to find them was a losing proposition. By the 
time we redeployed, 533 people had PTS'd and rejoined Afghan 
society, and the initiative still runs, to this day.
    Now, I say that, not just to pat our team on the back about 
the work that they did, because our effects were not perfect 
and there were some significant flaws to that initiative, but 
to say that many important lessons were learned during that 
experience, and I'll highlight three.
    The first. Unlike Iraq, Afghanistan is a very rural fight 
and cannot be fought out of Kandahar or Kabul. The reason we 
were effective is because we spent time out in the field, days 
at a time. We were talking to locals, building trust, and 
gaining insight. But, we need more, and it needs to be with a 
distinct local focus. In Iraq, the saying was, ``As goes 
Baghdad, so goes the rest of the country.'' This is not the 
case in Afghanistan, and, in many ways, it's the antithesis of 
the truth.
    No. 2. We are underfunded and undermanned in Afghanistan. 
We have fought this war on the cheap. And I say that, not only 
in a military side, but particularly on the civilian support 
side and the reconstruction side. But, in the military angle, 
specifically, we have asked two brigades to cover over a 1,600-
mile area that is known as Eastern Afghanistan, much of it in 
the most dangerous terrain in the world. Now, we've just 
announced that we're adding another 17,000 troops. But, even 
when those troops come online this summer, it is still a paltry 
number needed to fulfill the troop-to-task demands required for 
persistent engagement with people in the rural areas.
    And No. 3. Many of the attacks we sustained were not 
conducted by ideologues, they were conducted by people who 
simply had no economic options and felt the pull of a monetary 
reward for supporting insurgents. I personally dealt with 
insurgents who told me that they were not Taliban for cause, 
but essentially Taliban for hire. This number is now smaller, 
and that dynamic is now changing, but we need to help--we need 
to help provide jobs, education, security, and a viable future 
for the Afghans and their families in order to avoid the 
Taliban's campaign of ruthless intimidation and their 
significant information operations platform.
    Right now an American soldier is ending another long day 
patrolling the mountain ranges of Kunar province. And under 
sweat-soaked Kevlar and burdened by the 40-pound rucksack he's 
been carrying for the past 12 hours, he looks over his shoulder 
and he sees a group of Afghan children playing in the distance. 
And at that very moment, he's again reminded of what's at 
stake. And that same soldier's thinking about his own family 
and loved ones back at home, constantly being reminded of why 
he's there.
    Let me be clear, I, like many of my fellow soldiers and 
citizens, want this war to end, and we want this war to end, 
badly. I've lost friends, I've lost colleagues, both Afghan and 
American. And I understand the burden that sits on your 
shoulders, as decisionmakers, because it is similar to the 
burden that sat on mine as an officer who led troops in combat. 
But, the Taliban is executing a doctrine based on exhaustion, 
where their entire strategy depends on our political and 
national will faltering. Many of them are fond of saying, ``The 
Americans have the wristwatches, but we have the time.'' You 
have the wherewithal in this committee to make that an illusion 
by committing the resources, support, and political will to 
ensure this war is brought to an effective close.
    Thank you for your time and commitment to getting this 
right. I welcome your questions.
    [The prepared statement of Captain Moore follows:]

    Prepared Statement of Westley Moore, Captain, U.S. Army (Ret.), 
                             Baltimore, MD

    Thank you all for this opportunity and your service.
    Mr Chairman, I want to specifically thank you for acknowledging the 
importance of hearing from junior officers and NCOs. I believe I speak 
for everyone on the panel and the soldiers with whom we served when I 
say we appreciate the audience.
    In early 2005, I was working as an investment banker in London. 
Less than a year later, I was deployed with the 1st Brigade of the 82d 
Airborne Division in Eastern Afghanistan. My good friend and a hero of 
mine, LTC Michael Fenzel, deputy brigade commander of the unit I later 
joined, asked me if I would be willing to leave the world of finance 
and serve. A sense of duty to my oath as an officer, a sense of 
commitment to the troops I would lead, and a sense of loyalty to my 
friend who asked me to join him propelled me to leave my comfortable 
existence to spend 9 months in the border region of Afghanistan.
    Before deploying, I read extensively about the history of the 
region and sought counsel from those who I thought had any insight on 
the area. Within days of arriving in our area of operations, I realized 
nothing could have prepared me for some of the most trying, 
exhilarating, and heartbreaking days of my life.
    Iraq dominated the news cycle at the time. However, what I 
immediately learned was that the fight in Afghanistan is just as 
crucial and precarious if not more than the fight in Iraq. The terrain, 
the economic and educational conditions, its neighbors, two of which 
are nuclear armed, the tribalism and ``pashtunwali'' law that reigns 
supreme over any inclination of nationalism the lack of basic services 
such as electricity and clear water resources, and a plethora of other 
realities make this conflict more complex than I could have ever 
imagined. But my time in Afghanistan also made this war very real to 
me, and made getting this right very personal.
    The fighting was tough, and the kinetic operations are all-
encompassing, but the main reason I was asked to serve as the director 
of Information Operations was to address the American strategic support 
plan for Program-Takhim e Sol, or the Afghan Reconciliation Program. 
The Afghans, following the lessons of South Africa and Chile before 
them, aimed to create a reconciliation program that allowed Afghans who 
were involved with al-Qaeda, HIG, the Haqqani Network, and the Taliban 
to turn in their weapons, pledge allegiance to the new Afghan 
Government, and return home to their families without fear of 
retribution or imprisonment. When my team arrived, 8 people had PTS'd, 
or reconciled. LTC Fenzel and the other senior leaders of my unit ``got 
it.'' They understood the basic premise that the more insurgents we can 
convince to peacefully reconcile, meant the fewer we needed to make 
submit via force. We reevaluated our strategies and techniques to 
support the Afghans in this initiative. We created a program called 
``Afghan Public Relations Officers, or APROs,'' who were Afghans we 
worked with us to better tailor our messages and reaction to events. We 
stopped using broadcasts written by U.S. soldiers and simply read by 
translators, and altered not only the messages but the messengers, and 
recruited respected leaders like former President Mujadidi, to better 
reach our targets. We stopped using leaflet drops in order to spread 
the word because with a population that has a literacy rate in the 
single digits, written materials were utterly ineffective. We 
broadcasted PTS success stories so that people who were on the fence 
knew that a safe alternative awaited them, and that the option of 
waiting for our forces to find them was a losing proposition.
    By the time we redeployed, 533 people had PTS'd and rejoined Afghan 
society. The initiative still runs to this day. I say that not to pat 
our team on the back, or to say the effects were perfect, because there 
were some significant flaws in the initiative, but to say many 
important lessons were learned during that experience.
    (1) Unlike Iraq, Afghanistan is a rural fight, and cannot be fought 
out of Kandahar or Kabul. The reason we were effective is because we 
spent time out in the field. Days at a time, we were talking to locals, 
building trust, gaining insight. But we need more, and it needs to be 
with a local focus. In Iraq, the saying was ``As goes Baghdad, so goes 
the rest of the country.'' This is not the case in Afghanistan, and in 
many ways that is the antithesis of the truth.
    (2) We are underfunded and undermanned in Afghanistan. We have 
fought this war on the cheap and I say that not only on the military 
side, but on the civilian support side as well. But on the military 
angle specifically, we asked two brigades to have coverage over a 
1,600-mile area that is known as Eastern Afghanistan, much of it in the 
most dangerous terrain in the world. We just announced we are adding 
17,000 troops but even when those troops come online, it is still a 
paltry number needed fulfill the troop-to-task demands required for a 
persistent engagement with the people in rural areas.
    (3) Many of the attacks we sustained were not conducted by 
ideologues. They
were conducted by people who simply had no economic options and felt 
that pull of monetary reward for supporting insurgents. I personally 
dealt with insurgents who told me they were not Taliban for cause, but 
Taliban for hire. This number is now smaller, and the dynamic is now 
changing, but we need to help provide means to jobs, education, 
security, and a viable future for the Afghans and their families in 
order to avoid the Taliban's campaign of intimidation and their 
significant information operations platform.
    Right now, an American soldier is ending another long day of 
patrolling the mountain ranges in the Kunar region. Under his sweat-
soaked Kevlar, and burdened by the 40-pound rucksack he has been 
carrying for the past 12 hours, he looks over his shoulder and sees a 
group of Afghan children playing in the distance. And at that very 
moment, he's again reminded what's at stake. And that same soldier is 
thinking about his own family and loved ones back at home, constantly 
being reminded why he's there. Let me be clear; I, like many of my 
fellow soldiers and citizens, want this war to end. I have lost friends 
and colleagues, both American and Afghan. I understand the burden that 
sits on your shoulders as decisionmakers because it is similar to the 
burden that sat on mine as an officer who led troops in combat. But the 
Taliban is executing a doctrine based on exhaustion, where their entire 
strategy depends on our political and national will faltering. Many of 
them are fond of saying, ``The Americans have the wristwatches, but we 
have the time.'' You have the wherewithal to make that an illusion by 
committing the resources, support, and political will to ensure that 
this war is brought to an effective close.
    Thank you all for your time and commitment to getting this right. l 
welcome your questions.

    The Chairman. Thank you very much. Thank you very much, 
Captain. Very important testimony.
    Colonel Bacevich, you get to be the wrap-up.

   STATEMENT OF ANDREW BACEVICH, COLONEL, U.S. ARMY (RET.), 
   PROFESSOR OF INTERNATIONAL RELATIONS AND HISTORY, BOSTON 
                     UNIVERSITY, BOSTON, MA

    Colonel Bacevich. Well, thank you for the privilege of 
presenting my views to this committee. And I am particularly 
honored to do so alongside these veterans of the Afghanistan 
war.
    Members of this generation have come to know war well, and 
I certainly would not presume to comment on their experience. 
My own generation had its own intimate relationship with a 
different war; one that has now become a distant memory. As 
with many who served in Vietnam, my own views, even today, are 
perhaps too colored by that experienced. Still, in getting some 
perspective on the predicament we currently face, Vietnam may 
retain some lingering relevance.
    In one of the most thoughtful Vietnam-era accounts written 
by a senior military officer, GEN Bruce Palmer once observed 
that, ``With respect to Vietnam, our leaders should have known 
that the American people would not stand still for a protracted 
war of an indeterminate nature and with no foreseeable end to 
the U.S. commitment.'' General Palmer thereby distilled, in a 
single sentence, the central lesson of Vietnam. To embark upon 
an open-ended war lacking clearly defined and achievable 
objectives was to forfeit public support, thereby courting 
disaster. And his implication was clear: Never again.
    General Palmer's book, which he titled ``The 25-Year War'' 
appeared in 1984. Today, exactly 25 years later, we once again 
find ourselves mired in a protracted war of an indeterminate 
nature with no foreseeable end to the U.S. commitment. How did 
this happen?
    In the wake of Vietnam, the United States military set out, 
quite consciously, to develop a new way of war intended to 
preclude any recurrence of protracted indeterminate conflict. 
Yet, events since
9/11, in both Iraq and Afghanistan, have now demolished such 
expectations. Once again, as in Vietnam, the enemy calls the 
tune, obliging us to fight on his terms. Once again, decision 
has become elusive; and, as fighting drags on, its purpose 
becomes increasingly difficult to discern.
    American soldiers are now said to face the prospect of 
perpetual conflict. We find ourselves in the midst of what the 
Pentagon calls ``The Long War,'' a conflict global in scope, if 
largely concentrated in the Greater Middle East, and expected 
to last even longer than General Palmer's 25-year war.
    Yet, there's one notable difference today between today and 
the day 38 years ago, when the chairman of this committee 
testified against the then-seemingly endless Vietnam war. At 
that time, when the young John Kerry spoke, many of his 
contemporaries had angrily turned against their generation's 
war. Today, most of the contemporaries of those fighting in 
Iraq and Afghanistan have simply tuned out the long war. The 
predominant mood of the country is not one of anger or anxiety, 
but of dull acceptance.
    In other words, Americans today do appear willing to stand 
still, to use General Palmer's phrase, when considering the 
prospect of endless war.
    Now, there are many explanations for why Americans are so 
disengaged from the long war, but the most important, in my 
view, is that few of us have any personal stake in that 
conflict.
    When the citizen-soldier tradition collapsed under the 
weight of Vietnam, the post-Vietnam military rebuilt itself as 
a professional force. The creation of this all-volunteer 
military was widely hailed as a great success. Only now are we 
beginning to glimpse its shortcomings; chief among them the 
fact that it exists at some remove from American society.
    The upshot is that, with the eighth anniversary of the long 
war now approaching, fundamental questions about this 
enterprise continue to be ignored. My purpose today is to 
suggest that members of this committee have a profound duty to 
take these questions on.
    In his testimony before this committee, the young John 
Kerry, famously, or infamously, in the eyes of some, asked, 
``How do you ask a man to be the last man to die for a 
mistake?'' What exactly was that mistake? Well, there were 
many, but the most fundamental lay in President Johnson's 
erroneous conviction that the Republic of Vietnam constituted a 
vital United States national security interest, and that 
ensuring that country's survival required a direct United 
States military intervention. Johnson erred in his estimation 
of South Vietnam's importance, and he compounded that error 
with a tragic failure of imagination, persuading himself that 
there existed no alternative to a massive United States troop 
commitment and that, once in, there was no way out.
    My own view is that today we are, in our own way, repeating 
LBJ's errors. Recall that in his testimony before this 
committee, speaking on behalf of other antiwar veterans, the 
young John Kerry remarked that ``We are probably angriest about 
all that we were told about Vietnam and about the mystical war 
against communism.'' The mystical war against communism finds 
its counterpart in the mystical war on terrorism. As in the 
1960s, so, too, today. Mystification breeds misunderstanding 
and misjudgment. It prevents us from seeing things as they are.
    As a direct result, it leads us to exaggerate the 
importance of places like Afghanistan, and, indeed, to 
exaggerate the jihadist threat, which falls well short of being 
existential. It induces flights of fancy so that, for example, 
otherwise sensible people conjure up visions of providing clean 
water, functioning schools, and good governance to 
Afghanistan's 40,000 villages, with expectations of thereby 
winning Afghan hearts and minds. It causes people to ignore the 
consideration of cost. With the long war already, this Nation's 
second most expensive conflict, trailing only World War II, and 
with the Federal Government projecting trillion-dollar deficits 
for years to come, how much can we afford, and where is the 
money coming from?
    Now, for political reasons, the Obama administration may 
have banished the phrase ``Global War on Terror,'' yet even 
today the conviction exists that the United States is called 
upon to dominate or liberate or transform the Greater Middle 
East. Methods may be shifting, but the emphasis on pacification 
giving way to militarized nation-building, priorities may be 
changing, AfPak now supplanting Iraq as the main effort.
    The urgent need is to demystify this project, which, from 
the outset, was a misguided one. Just as in the 1960s, we 
possessed neither the wisdom nor the means needed to determine 
the fate of Southeast Asia, so today we possess neither the 
wisdom, nor the means necessary, to determine the fate of the 
Greater Middle East. To persist in efforts to do so will simply 
replicate, on an even greater scale, mistakes and misjudgments 
comparable to those that young John Kerry once rightly decried.
    Thank you.
    [Applause.]
    The Chairman. Please, folks, we will have no demonstrations 
of any kind--for, against, in the middle, either way.
    [The prepared statement of Colonel Bacevich follows:]

 Prepared Statement of Andrew J. Bacevich, Colonel, U.S. Army (Ret.), 
 Professor of International Relations and History, Boston University, 
                               Boston, MA

    Thank you for the privilege of presenting my views to this 
committee. I am particularly honored to do so alongside these veterans 
of the Afghanistan war.
    Members of this generation have come to know war well and I would 
not presume to comment on their experience. My own generation had its 
own intimate relationship with a different war, one that has now become 
a distant memory. As with many who served in Vietnam, my own views even 
today are perhaps too colored by that experience. Still, in gaining 
some perspective on the predicament that we currently face, Vietnam may 
retain some lingering relevance.
    What strikes me most about that war is the extent to which its 
lessons have been forgotten and in some cases even inverted.
    In one of the most thoughtful Vietnam-era accounts written by a 
senior military officer, GEN Bruce Palmer once observed that ``With 
respect to Vietnam, our leaders should have known that the American 
people would not stand still for a protracted war of an indeterminate 
nature with no foreseeable end to the U.S. commitment.''
    General Palmer thereby distilled into a single sentence the central 
lesson of Vietnam: To embark upon an open-ended war lacking clearly 
defined and achievable objectives was to forfeit public support, 
thereby courting disaster. The implications were clear: Never again.
    General Palmer's book, which he titled ``The Twenty-Five Year 
War,'' appeared in 1984. Today, exactly 25 years later we once again 
find ourselves mired in a ``protracted war of an indeterminate nature 
with no foreseeable end to the U.S. commitment.''
    How did this happen?
    In the wake of Vietnam, the United States military set out to 
develop a new way of war intended to preclude any recurrence of 
protracted, indeterminate conflict. The expectation was that by 
emphasizing technology and superior skill U.S. forces would achieve 
victory quickly and at acceptable costs, thereby protecting themselves 
from the possibility of public abandonment. In 1991 Operation Desert 
Storm seemingly validated this new paradigm.
    Yet events since 9/11, in both Iraq and Afghanistan, have now 
demolished such expectations. Once again, as in Vietnam, the enemy 
calls the tune, obliging us to fight on his terms. Decision has become 
elusive. As fighting drags on, its purpose becomes increasingly 
difficult to discern.
    American soldiers are now said to face the prospect of perpetual 
conflict. We find ourselves in the midst of what the Pentagon calls 
``The Long War,'' a conflict global in scope (if largely concentrated 
in the Greater Middle East) and expected to last even longer than 
General Palmer's ``Twenty-Five Year War.''
    To apply to the Long War the plaintive query that GEN David 
Petraeus once posed with regard to Iraq--``Tell me how this ends''--the 
answer is clear: No one has the foggiest idea. War has become like the 
changing phases of the moon: It's part of everyday existence. For 
American soldiers there is quite literally no end in sight.
    Yet there is one notable difference between today and the day 38 
years ago when the chairman of this committee testified against the 
then seemingly endless war in Vietnam. At that time, when the young 
John Kerry spoke, many of his contemporaries had angrily turned against 
their generation's war. Today, most of the contemporaries of those 
fighting in Iraq and Afghanistan have simply tuned out the Long War. 
The predominant mood of the country is not one of anger or anxiety, but 
of dull acceptance.
    In other words, Americans today do appear willing to ``stand 
still'' when considering the prospect of endless war. There are many 
explanations for why Americans are so disengaged from the Long War, but 
the most important, in my view, is that few of us have any personal 
stake in that conflict.
    When the citizen-soldier tradition collapsed under the weight of 
Vietnam, the post-Vietnam military rebuilt itself as a professional 
force. The creation of this all-volunteer military was widely hailed as 
a great success. Only now are we beginning to glimpse its shortcomings, 
chief among them the fact that it exists at some remove from American 
society. Americans today profess to ``support the troops'' but that 
support is a mile wide and an inch deep. It rarely translates into 
serious public concern for whether the troops are being used wisely or 
well.
    The upshot is that with the eighth anniversary of the Long War now 
approaching, fundamental questions about this enterprise continue to be 
ignored.
    My purpose today is to suggest that the members of this committee 
have a profound duty to take those questions on.
    In his testimony before this committee, the young John Kerry 
famously--or infamously, in the eyes of some--asked: ``How do you ask a 
man to be the last man to die for a mistake?''
    What exactly was that mistake? Well, there were many, but the most 
fundamental lay in President Johnson's erroneous conviction that the 
Republic of Vietnam constituted a vital U.S. security interest and that 
ensuring that country's survival required direct U.S. military 
intervention.
    Johnson erred in his estimation of South Vietnam's importance. He 
compounded that error with a tragic failure of imagination, persuading 
himself that there existed no alternative to a massive U.S. troop 
commitment and that once in there was no way out.
    My own view is that we are, in our own day, repeating LBJ's errors. 
Recall that in his testimony before this committee, speaking on behalf 
of other antiwar veterans, the young John Kerry derisively remarked 
that ``we are probably angriest about all that we were told about 
Vietnam and about the mystical war against communism.''
    The mystical war against communism finds its counterpart in the 
mystical war on terrorism. As in the 1960s so too today: Mystification 
breeds misunderstanding and misjudgment. It prevents us from seeing 
things as they are.
    As a direct result, it leads us to exaggerate the importance of 
places like Afghanistan and indeed to exaggerate the jihadist threat, 
which falls well short of being existential. It induces flights of 
fancy, so that, for example, otherwise sensible people conjure up 
visions of providing clean water, functioning schools, and good 
governance to Afghanistan's 40,000 villages, with expectations of 
thereby winning Afghan hearts and minds. It causes people to ignore 
considerations of cost. With the Long War already this Nation's second 
most expensive conflict, trailing only World War II, and with the 
Federal Government projecting trillion dollar deficits for years to 
come, how much can we afford and where is the money coming from?
    For political reasons the Obama administration may have banished 
the phrase ``Global War on Terror,'' yet even today the conviction 
persists that the United States is called upon to dominate or liberate 
or transform the Greater Middle East. Methods may be shifting, with the 
emphasis on pacification giving way to militarized nation-building. 
Priorities may be changing, AfPak now supplanting Iraq as the main 
effort. Yet by whatever name the larger enterprise continues. The 
President who vows to ``change the way Washington works'' has not yet 
exhibited the imagination needed to conceive of an alternative to the 
project that his predecessor began.
    The urgent need is to demystify that project, which was from the 
outset a misguided one. Just as in the 1960s we possessed neither the 
wisdom nor the means needed to determine the fate of Southeast Asia, so 
too today we possess neither the wisdom nor the means necessary to 
determinate the fate of the Greater Middle East. To persist in efforts 
to do so--as the Obama administration appears intent on doing in 
Afghanistan--will simply replicate on an even greater scale mistakes 
and misjudgments comparable to those that young John Kerry once rightly 
decried.

    The Chairman. But, thank you for the testimony. Very, very 
important statement, and, I think, a wonderful mix of views 
here that really pose to the committee the heart of this 
dilemma. And I'm grateful to each and every one of you for the 
testimonies that you've given here today. And our job now is to 
sort of probe and see if we can figure out the answers to some 
very provocative questions that have been posed in the 
testimonies that we've heard today.
    I'm very grateful to you, Colonel Bacevich, for posing this 
fundamental dilemma about resources and strategy, though I'm 
not sure if I'm grateful for the reminders that I'm now the 
``older John Kerry.''
    But, the--sort of cutting to the rub of this, I guess--you 
talked about the tragic failure of imagination. Each of you, I 
think, in your own way--Sergeant McGurk, Captain Moore--you've 
each talked about the shift of resources to Iraq and the fact 
that we haven't had resources. And I'm very sympathetic to what 
I heard from you about when I was up in Kunar province, I saw 
the outstanding work of one of the PRTs, and their 
extraordinary ability to have forged very personal 
relationships with people in that particular village, where 
they clearly made a difference. But, as Colonel Bacevich is 
mentioning, there are 40,000 such villages and countless 
numbers of people. And the question, to some degree, is posed 
in your own statements about the support--about the task as you 
saw it, to try to have a more engaged kind of personal 
relationship--and really, Mr. Reyes, it sort of plays off your 
sense of frustration at what you were trying to do, because 
you've articulated the frustration of going out there and not 
being able to discern who's Taliban, who isn't, and being able 
to figure out how you put the pieces together. In other places, 
where they had a different set of resources or maybe a better 
definition of the mission, they were able to put those pieces 
together. But, in the end, the question is, Do all the pieces 
add up to putting it together in the way that Colonel Bacevich 
is asking?
    So, I think the review process that's gone on, where 
General Petraeus and others have tried to measure, How do you 
recalibrate this?--the question now that we have to ask is, Is 
this calibration accurate? Is it sufficient? Is it going to be 
able to undo the negatives that you ran into, Mr. Reyes? Is it 
going to be able to reinforce the positives that you both 
talked about, and you talked about, Genevieve? But, are they, 
in the end, going to be adequate to meet the challenge that 
Colonel Bacevich talks about, which is the sufficiency overall 
of this larger strategy to actually work? And that's what we've 
got to figure out. I think that's a fair statement of the 
challenge.
    It seems to me that the administration is trying to narrow 
that mission, Colonel, and they're trying not to get into a 
place where they are talking about an internal rebuilding, but, 
rather, defining the mission in its original terms, which was 
to get al-Qaeda and prevent al-Qaeda from using it as a base to 
be able to attack the United States.
    Now, is that, or is that not, in your judgment, Colonel, a 
sufficient recalibration of the strategy--an achievable 
calibration of the strategy, maybe I should say?
    Colonel Bacevich. You know, my preliminary report card of 
the Obama administration would give the administration very 
high marks, in the sense that some of the, bluntly speaking, 
ideological fantasies that seemed to inform thinking during the 
Bush era have now been set aside, and the approach now seems 
much more grounded in reality, and pragmatic. And, you know, 
one would have to applaud them. And I think that that statement 
does apply to this administration's perspective on Afghanistan, 
that, to a degree, the expectations and objectives are being 
ratcheted down. I would still say those objectives are not 
clearly defined.
    But, my complaint with regard to the administration is 
that, at least as best I can tell, I haven't heard a clear 
statement of how Afghanistan fits in this larger context of 
``the long war.''
    Now, the administration has abandoned, best I can tell, the 
phrase ``Global War on Terror,'' but what is the larger 
enterprise, and how does Afghanistan relate to that larger 
enterprise? And if you focus on the larger enterprise rather 
than strictly on Afghanistan, it seems to me you confront 
questions of purpose and duration and resource requirements 
that demand attention. Otherwise, the long war--and I emphasize 
that phrase, because it seems to me that it's very--it is 
descriptive, in the sense that the only thing we can say about 
this war is that it's going to go on for a long, long time. It 
seems to me we need--we just urgently need to ask ourselves 
whether or not the purposes of the long war are achievable, 
necessary, and affordable. And Afghanistan is a subset of that 
larger set of questions.
    The Chairman. Well, I understand that. I agree with that. 
And the question then becomes, Do you define the challenge 
today, not just in Afghanistan and Pakistan, but in other 
places, as a kind of global counterinsurgency effort that we 
have to wage--not a global war on terror, but a 
counterinsurgency? And, as you know better than anybody, 
there's a distinction between counterterrorism and 
counterinsurgency. Is it fair to say that you could have a 
footprint that is calibrated to the task of protecting the 
United States from what we already know, by 2001 September 
experience, is the ability of this group of people to organize 
and plot against us, some other attack from an open territory? 
In other words, if we're not there in some way preventing them 
from the freedom to do that, isn't it pretty clear they're 
going to do that?
    Colonel Bacevich. I think this is one of the areas where 
Vietnam--the Vietnam comparison is relevant, because those 
who--the architects of that war insisted that, once we made the 
commitment of Americanizing the war, that there really was no 
alternative except to follow through. That's the tragic failure 
of imagination. And I would want to argue that we needn't--we 
should not fall into that trap again. We should at least be 
willing to consider the possibility--examine the possibility--
of alternatives to the long war.
    If the long war--this effort to reduce the jihadist threat 
to the level in which it would be tolerable, if you will--to do 
that by invading and occupying and transforming countries--
that's, in essence, what U.S. strategy has been since 9/11, 
focused on Iraq and Afghanistan--is there another fundamentally 
different approach? And I think there is. I mean, it seems to 
me there are workings of an alternative approach, an approach 
that does not require us to invade and occupy countries in the 
establishment of very robust defenses. I mean, 9/11 happened, 
not because al-Qaeda was so smart, it happened primarily 
because we were so stupid and we allowed it to happen.
    So, an alternative strategy begins with the creation of 
robust defenses. It includes an effort to deny to the jihadists 
the resources, and primarily the financial resources, that they 
need to plot against us. And we provide those resources, in 
large part because of our dependence upon oil, that comes from 
the Persian Gulf, which funnels billions of dollars, some 
portion of which gets diverted to the jihadists.
    What that says is, a serious alternative strategy makes an 
energy policy an urgent priority. It's--an alternative strategy 
is one that says--that views the terrorist threat, not as the 
equivalent of Nazi Germany, but, in a sense, as an 
international criminal conspiracy, a religiously motivated 
mafia, and that the way you deal with that is through a 
sustained, well-resourced, multilateral police effort to 
identify and root out terrorist networks--again, something that 
is accomplished, not through invading and occupying countries.
    Now, I'm not trying to sell you, at this particular moment, 
on every aspect of this alternative strategy; I'm simply trying 
to--I am trying to sell you on the idea that perhaps it is 
possible to conceive of an alternative to the long war which 
will enable us to accomplish our national security objectives 
more effectively and more cheaply.
    The Chairman. What do you, as the troops who are on the 
ground trying to implement this strategy, feel about what 
you've just heard? But also, is there time, in your judgment, 
given the shift that you've heard articulated in this 
recalibration of our policy--do you believe that that is 
adequate to be able to allow you to do the things that you were 
talking about and make sufficient progress, or do you get 
trapped in the place that Colonel Bacevich was talking about?
    Captain Moore, Sergeant, and Corporal.
    Captain Moore. Thanks, sir. And actually, in listening to 
the comments, I actually wholeheartedly agree that there needs 
to be--we need to holistically approach how we're going to look 
at this. We need to look at alternative energy resources. We 
need to look at economic resources and all the other factors 
that play into this, that play into the conflict. But, we can't 
do it to the exclusion of providing security to Afghanistan, 
and we can't do it to the exclusion of providing an opportunity 
for the NGOs and the State Department and USAID to be able to 
go in and do the work, because the challenge of them being able 
to do the work in Afghanistan has not--in some cases, has been 
the lack of resources that have been--has been targeted toward 
them, but, in many cases, it's been security. They haven't had 
the security measures in place that would allow them to 
actually further the advancement of development causes and 
development cures.
    But, going back to something that you mentioned earlier, I 
think, is a very important point----
    The Chairman. My question is, Captain, can we ever provide 
adequate security without the kind of commitment that digs you 
into the hole that takes you beyond your resources, beyond your 
capacity? That's the balance.
    Captain Moore. Yes, sir. Well, it's not the, ``Can we 
provide the adequate security.'' It's that, Can we put together 
the resources to help the Afghans provide adequate security? 
And the answer to that is ``Yes.''
    The Chairman. You believe we can.
    Captain Moore. Yes, sir.
    The Chairman. So, on the ground, you sense that with an 
adequate amount of focus now on the tribal level, more local 
anticorruption and other kinds of efforts, you have confidence 
in the ability to make progress.
    Captain Moore. Sir, when you look at the progress that the 
ANP and the ANAs, or the Afghan National Police and the Afghan 
National Army, has made, even just over the process of the past 
3 to 4 years, it's quite significant. They have more people on 
rolls, they're more competent, they're more efficient. So, I 
think--and especially if we can tailor our--not only 
development funds, but then also our training, in terms of 
looking at a more local level, better understanding Pashtunwali 
and the Pashtun understanding of the eastern border of 
Afghanistan, then I think we absolutely can build those forces.
    The Chairman. Sergeant Chase.
    Sergeant Chase. Sir, I just would like to back up what Wes 
said, and also, I do agree with some things that the Colonel 
has said, except I would like to take us back a minute to the 
Soviet invasion and when they left, and the point that was made 
to me several times by Afghans who lived during that time 
period: Nobody provided them with infrastructure, with 
security, or with a stable government. That's where the issues 
were. That's how al-Qaeda was able to get into Afghanistan and 
use it as a safe haven, because that country was so volatile 
and so desperate. Al-Qaeda did attack us on our soil and were 
harbored by the Taliban and now that we've gone in and 
essentially, for the most part, have worked to get rid of the 
al-Qaeda in--I'm sorry, I'm so nervous----
    The Chairman. No, you're doing great.
    Sergeant Chase. In the beginning, we focused so much of our 
efforts on getting rid of the al-Qaeda and this idea of getting 
rid of Osama bin Laden--as far as we know, he hasn't been in 
Afghanistan for quite some time; however, we are now dealing 
with homegrown and very much internally developed Taliban, 
supported and facilitated by al-Qaeda. The local Afghans I 
spoke to were only concerned with issues like losing their 
livelihoods and other things I've mentioned. However, if we 
leave without providing security, propping up a stable 
government, and giving the local villages and the people that 
are there some sense of structure and some sense of safety and 
security, we'll be back. If we don't do this now, we'll be 
back. We belong to an all-volunteer military, and the three of 
us are sitting here before you, telling you that we need to do 
this right and we need to do it now. I have many friends who 
have said that they would go back to Afghanistan--many of us 
will do what needs to be done now because we don't want to have 
to go back in the future--we don't want our children to have to 
go back.
    Afghanistan's a very different country, it's a very 
different fight. And to say that we have invaded Afghanistan is 
highly inaccurate. In fact, we haven't done enough, 
effectively, to help them. Understanding their culture more 
intimately and working with Pashtunwali code, as well as the 
culture of the Afghans, we would be better able to assist them 
in taking care of themselves, as opposed to where in an 
invasion as we go in, very much like the Russians did, and tell 
them how to live.
    Essentially, yes, if we worked smarter and allocated our 
resources more appropriately, as well as truly worked with and 
among the Afghans. I have every confidence that we can 
accomplish what we need to in order for Afghanistan to be safe 
and viable without external and internal influence from 
extremists.
    The Chairman. I've exceeded my time. Sergeant McGurk and 
Mr. Reyes, why don't you come in, with an answer to Senator 
Lugar perhaps, so that we can get around the dais here, and you 
answer that. Is that fair enough, Senator Lugar?
    Senator Lugar. Why don't they go ahead.
    The Chairman. All right.
    Would each of you, then, respond to that? And as you do, 
remember that when we went in, in 2001, in the aftermath of 
that we had 100-percent of the Afghan people behind us, 
supportive, ready to roll. And obviously that has now dropped. 
I've seen some numbers that are perilously low at this point in 
time. So, part of the question is, Do we have time to turn that 
around, and the capacity at the same time?
    Sergeant McGurk. And then Mr. Reyes.
    Sergeant McGurk. Sir, I'd have to say we don't have any 
choice but to make the time. I think we made our bed, and now 
we have to lie in it. We went into Afghanistan to try to defeat 
the Taliban, try to prevent al-Qaeda from reemerging within 
Afghanistan and building more bases. And then we just left. We 
left the Afghan people to themselves. We half propped up a 
government and then left. We started building trust, we started 
building really good rapport with the local Afghan people, and 
we just left. It's as plain as that, sir.
    I'm not a policy wonk, I'm not an expert when it comes to 
foreign policy. I can tell you, the sense on the ground when I 
was there was, they were happy we were there.
    I also served in Iraq, and I can tell you, I never got that 
sense, once, when I was in Iraq. I was in Baghdad, Al Shualah, 
and different areas on the western fringes of Baghdad. I was 
out even by Abu Ghraib Prison. I never once saw the same 
support from the Iraqis that I saw from the Afghan people.
    And as I said in my testimony, when that--the village elder 
came up--and here's a man who was fighting the Russian Army--
was basically thanking me. You know, I'm not the entire mission 
in Afghanistan at the time, but I am representative of the 
Army, and they were happy that--he was happy, and I know that 
many of the people we dealt with were extremely happy that we 
were there, and they asked us not to leave. I mean, it's no big 
secret that, you know, when the Russians were defeated in 
Afghanistan, we took our funding and left. And a lot of the 
resentments were carried over until then. And there were some 
older generation of Afghan that were kind of a little leery of 
us. And I think that if we don't make the effort, we don't 
take--make the time, we're going to be facing more terrorist 
attacks.
    To say that, you know, Afghanistan was an invaded country--
kind of what Genevieve said, it wasn't an invaded country. And 
unlike Vietnam, the Vietnamese didn't attack us on United 
States soil.
    So, to answer your question, sir, in a general term, is, we 
have to make the time to at least try and stabilize, as best we 
can.
    The Chairman. Thank you. Never let anybody tell you you're 
not an expert. You are. That's why you're here.
    Corporal Reyes.
    Corporal Reyes. The way we defeat these terrorist networks 
is by seizing recruitment. We need to remove the motive of why 
these terrorist organizations are growing. Once we remove that 
motive, we need stronger intelligence. With that stronger 
intelligence, we create a more isolated situation, versus 
taking a shot in the dark by sending 17,000 more troops 
sweeping the landscape, leaving a lot of destruction behind, 
and just giving them more motive to have these--the Taliban 
grow.
    The Chairman. There's really a difference of opinion here, 
obviously, between those who feel that, given the right 
strategy, given the right resources and mission definition, you 
can avoid the negative effect that you're talking about, 
Corporal, and wind up actually creating a positive response. 
Certainly, we've seen that in PRTs and other places where we've 
had that adequate ability. But, I understand what you're 
saying, also, that where we have collateral damage, where you 
have civilian destruction, where you have those other things, 
you have recruitment. I don't disagree with that at all. It's a 
dilemma.
    Senator Lugar.
    Senator Lugar. Well, thank you, Mr. Chairman.
    Now, let me just say--and I suspect each one of us has 
similar feelings--that we were deeply moved by your testimony 
this morning. This was important to hear.
    And I appreciate, having testified as you have, that now 
you've engaged and been stimulated by the chairman in vigorous 
debate of sorts about what our policy ought to be.
    I have come to this hearing from an equally vigorous 
debate, over breakfast. We had GEN Brent Scowcroft, and I will 
not ascribe to him any particular views, but there were 16 
Members of Congress sitting around the table with as diverse a 
set of opinions as we've heard in this hearing, but they really 
come down to a fundamental problem that you've illustrated so 
well, and that is, in terms of your own feelings, the emotions 
generated by the service you've given, the people that you have 
worked with in Afghanistan, at least some of you feel that, in 
fact, we must take the time, we must, in fact, rebuild, or 
build, from the beginning, a country that is very complex, that 
some would say has really almost only been a semi-country made 
up of tribes, various divisions, various crosscurrents in life.
    And many people, whether they are for or against that 
policy, evaluate that this is likely to be very expensive; 
maybe not in terms of American lives perpetually, or Afghan 
lives, maybe just in terms of the resources. As we've already 
said, this is in the context of a country presently that is 
running a trillion-dollar deficit, may have that sort of 
predicament for several years to come, in a world that is 
similarly troubled.
    Now, you could make the case that life is unfair in this 
respect. The Afghans, after all, didn't create the world 
economic crisis, nor our trillion-dollar deficit, nor our 
problem, really, in recruiting Armed Forces, or even in 
building our own capacity. But, this is one set of facts.
    Another, however, more constructive thought is that al-
Qaeda is not just an Afghan-Pakistani problem, that there are 
currently
al-Qaeda in Yemen, in Somalia, in various other countries where 
attacks have occurred on our Embassies in Africa in the past. 
And therefore, in fact, the configuration of our response, in 
terms of the Armed Forces or the intelligence forces that we 
have, ought to be our objective. In other words, be on the 
ground in a whole host of countries, not simply Afghanistan and 
Pakistan, ferreting out where the trouble is, informing 
ourselves, either working with resident governments or, where 
there isn't much of a government, to take action to make 
certain that we are not attacked or that these folks are not 
effective. Not an impossible task. And when General Petraeus 
visited with our committee, at the chairman's direction, we 
discussed, really, a number of things which are occurring which 
I found reassuring, and are not a part of the Afghan-Pakistan 
situation, but are a part of the al-Qaeda predicament, as we 
see it, as a group of organized terrorist cells.
    I, finally, would just say that I found at least the 
Professor's thoughts important with regard to the oil import 
business. This is an issue that's come before the committee 
perennially. The fact is, we have financed, in a great way, not 
just the Afghan-Pakistan problem, but other sources of grave 
foreign policy difficulty.
    Now, you can say, ``Well, after all, supply and demand 
works. The American motorists wanted SUVs, wanted vans. Why all 
the worry about economy with regard to oil? First things first 
back here.'' But, our inability, I think, in the leadership of 
the country, to illustrate the predicament we've had is, in 
large part, our fault, and we all have to do better. We will 
have to be thinking together, because the energy situation--not 
just the oil, but in other facets in which we have seen cutoffs 
to NATO allies and problems of this sort--are very real, and 
will remain that way.
    Likewise, the multilateral police situation has been 
difficult, thus far, to sell to Europeans, who are loyal to 
NATO, some loyal to us, but never really believed in the 
conflict and have a good number of other views, even now, in 
their Parliaments, as expressed in their low defense budgets, 
their lack of available transportation for their forces 
anywhere.
    So, we have work to do if we're going to go that route, but 
it's not an improbable task for the future. If we're talking 
about whether it's a short war or a long war, the threat of al-
Qaeda or other terrorists probably is going to exist for us and 
for others in alliances that we have.
    So I don't really have questions of the panel; I just 
express appreciation that you've brought forward dilemmas that 
we've got to wrestle with. And I appreciate the thoughts about 
the President, about the fact that he and his advisers are 
strenuously debating these issues. In my judgment, although I'm 
not a part of the inner circle, they've not come to 
conclusions. They are proceeding pragmatically, sort of working 
day by day.
    And as the chairman just visited Pakistan, and others 
likewise, returned from that country, they find a very troubled 
state, that, leaving aside whatever has been occurring with 
regard to the war or the conflict thus far, may create enormous 
dilemmas for the world, quite apart from the United States, 
vis-a-vis India or surrounding countries, leaving aside where 
we started, with Afghanistan. And that's going to require, on 
the part of our President, the Secretaries of State, Defense, 
and maybe others of us who have supported and advised on this, 
some extraordinary dilemmas.
    But, thank you for coming, thank you for your testimony.
    I thank you, again, Mr. Chairman, for calling us together.
    The Chairman. Thank you so much, Senator Lugar.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman, for holding this 
historic hearing.
    It's very important, as we chart our way forward in 
Afghanistan and Pakistan, we talk to those who have served on 
the ground and who will live with the aftereffects of this war 
for the rest of their lives. We must also recognize the family 
members, including Colonel Bacevich, who have lost their loved 
ones during these difficult times. I also want to thank all the 
witnesses for being here today and for their selfless service 
to our country. We are indebted to all of you.
    I voted in favor of the authorization to use military force 
in Afghanistan, because that was where al-Qaeda, which had 
planned and carried out the attacks of September 11, was based. 
The previous administration's mismanagement of that war, 
however, was tragic, and it has left us in a very difficult 
position.
    The situation in the region remains explosive, and the 
current administration's decision to increase the United States 
military presence in Afghanistan may have no lasting positive 
impact, so long as there are safe havens for militants in 
Pakistan. Indeed, the escalation may further destabilize the 
situation in Pakistan, to the detriment of United States 
national security. So, while the President is certainly right 
to focus on this region, I am somewhat concerned that we may be 
sending our troops right into the eye of the storm with an 
insufficient strategy for addressing the greatest threat to our 
national security, which, of course, lies on the Pakistan side 
of the border.
    As to some questions, General McKiernan requested 
additional troops in Afghanistan for the purpose of providing 
security for the Afghan population, yet recent polling 
indicates that the overwhelming majority of Afghans oppose an 
increase in troop levels. My sense is that there are mixed 
feelings among the Afghan population and that our status as a 
party to the conflict can make it difficult, if not impossible, 
for our troops to serve a peacemaking function. What was your 
experience, Corporal Reyes, on this matter?
    Corporal Reyes. The troop escalation is very unnecessary. 
With better intelligence, we can create a more isolated 
situation, where we're not going to risk innocent civilian 
lives and create more resentment toward us. With that, you 
create a motive for these terrorist groups to become larger. 
So, it's counterproductive to escalate the troops right now 
in----
    Senator Feingold. But--so, your first sentence was what, 
again? It is not necessary?
    Corporal Reyes. A troop escalation isn't necessary, no.
    Senator Feingold. Isn't necessary.
    Corporal Reyes. No.
    Senator Feingold. OK.
    Corporal Reyes. It's not.
    Senator Feingold. Thank you.
    Colonel Bacevich, what are the prospects for defeating the 
insurgency by increasing the number of United States troops in 
Afghanistan, given some concerns that many, if not most, 
Afghans in the south oppose the presence of United States 
troops?
    Colonel Bacevich. Well, several people have made the point 
that this is not a problem that has a military solution, that, 
to the degree that there is a solution, the solution in 
Afghanistan is going to be found in what is going to be a 
massive and protracted and tremendously costly exercise in 
nation-building. I think that the likelihood of that exercise 
producing success, 10 or 15 years downstream, is not great.
    But, I think the larger point to be made--and, I mean, you 
made it in your introductory remarks, and Senator Lugar, I 
think, alluded to the same thing--is, even if we could 
magically wave our wand and, tomorrow, have the Afghanistan 
problem be solved--the country would be stable, that the 
government would be legitimate--what exactly would we have 
achieved, in a strategic sense? And, I think, in a strategic 
sense, the gains would be very limited, because, as you 
suggested, and as this--as this administration, I think, has 
acknowledged in its creation of this term ``AfPak''--it is a 
mistake to view Afghanistan in isolation, and, in many 
respects, the larger problem is in neighboring Pakistan. So----
    Senator Feingold. And----
    Colonel Bacevich. So, to invest enormous resources in 
Afghanistan, I think, is allowing tactical considerations to 
take precedence over strategic thinking.
    Senator Feingold. Well, this is precisely what's been 
bothering me since I spent 4 or 5 days in Pakistan in this 
region less than a year ago and after the thoughtful remarks of 
the chairman, after his recent visit there. I want to follow on 
this interrelationship between Afghanistan and Pakistan. What 
about the possibility that an escalation in Afghanistan could 
actually be more destabilizing to Pakistan? In other words, in 
terms of militants spilling back over into that border--is that 
a fair concern, or not?
    Colonel Bacevich. I think it's a very real concern. You 
know, there's a--it's a wonder--there's a very interesting--I 
think, flawed--new book out by David Kilcullen, the 
counterinsurgency specialist, called ``The Accidental 
Guerrilla.'' There's a lot about that book I disagree with, but 
there's one core truth, I think, that he gives us, and that is 
the notion that most of the people who fight against us in 
places like Afghanistan are fighting against us because we're 
there. Now, we may not believe that we are invading and 
occupying countries, but the people on the other end viewed--
view themselves as being invaded and occupied. So, to some 
degree, to some measurable degree, in places like Afghanistan, 
increasing the United States presence actually increases the 
dimensions of the problem.
    Senator Feingold. And, Colonel, Admiral Mullen has 
acknowledged that the Pakistani Security Services maintain 
relations with militants in Pakistan. There are reports that--
press reports that this includes the provision of fuel and 
ammunition for Taliban operations against United States forces 
in Afghanistan. If these allegations are correct, what is the 
likelihood that we can stabilize the region or deny al-Qaeda 
safe havens there, so long as these sorts of activities 
continue?
    Colonel Bacevich. Next to none.
    Senator Feingold. All right.
    And then, Sergeant Chase, in your experience, can we trust 
the Afghan Army and police? Are they motivated or do they have 
a different perception of what is needed in Afghanistan?
    Sergeant Chase. Well, sir, I was in Afghanistan in 2006, 
and my experience in working with the Afghan National Army and 
Afghan National Police is limited, but I will say that, having 
been there and spoken to Embedded Training Teams that do work 
amongst these units, the Afghan National Police, because of the 
tribal affiliations and preexisting familial rivalries that 
they have, because of their locality in their districts, and 
the fact that they come from those areas, tend to be a little 
less effective than, say, the Afghan National Army, where the 
people come from all over Afghanistan. The ANA have less local 
tribal ties and are able to make more objective decisions 
within the areas where they operate.
    In my experience, my observation and what I've heard from 
other people, the ANA is a bit more effective than the ANP. The 
locals don't trust the ANP, a lot of times, in their own 
districts.
    Senator Feingold. Thank you all.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Feingold. Good 
questions.
    Senator Corker.
    Senator Corker. Mr. Chairman, thank you.
    And, while I value what I do here in the public arena, and 
think that it's important, I want all of you to know that I 
think our service pales to what each of you have done, and do, 
and I thank you so much for being here. I thank you for your 
sincere presentations and for everything that you've done on 
behalf of our country, and will do. I thank you very much for 
this presentation.
    So, as I listened to the presentation, on the heels of 
presentations by Mr. Holbrooke and others regarding what our 
mission is, I'm confused. I have heard--first of all, let me 
say that I think that we have fought Afghanistan on the cheap. 
I do think that Iraq affected everything that we did in 
Afghanistan. I absolutely believe that's true. I said that as 
soon as I came back from Afghanistan, and I think that goes--I 
don't think anybody will even debate that. I think that is 
true, and I think it has led us into a very complex situation.
    On the other hand, as I hear, especially when someone 
speaks with such assuredness--and I'm speaking of Mr. 
Holbrooke--I get nervous when anybody is that sure of 
themselves. And I hope the other side of that isn't the often-
wrong component that sometimes comes with that phrase. OK?
    So, I listened. I thought Colonel Bacevich's presentation 
was most interesting. The fact is that al-Qaeda exists in many 
countries--many, many countries around the world. The stated 
mission is, we're going to, in Afghanistan, make sure that it's 
not a safe haven for al-Qaeda. And yet, in Pakistan we use 
drones and Hellfire missiles and intelligence to counter that, 
not troops on the ground.
    I hear each of you speak about the relationships that 
you've developed, and I absolutely understand fully why a sense 
of a lack of commitment or followthrough, to you, would be 
failure and letting people down that you've gotten to know, and 
certainly people who have died in your presence. I understand 
that.
    But, let me just ask Captain Moore and Sergeant McGurk, Do 
you think that the mission of making Afghanistan--which has 
been stated, and hopefully not stated just to win stripes for 
people, thinking that, you know, our administration is willing 
to be strong on defense--but, the stated mission to make it so 
that it's not a safe haven for al-Qaeda--is that the right 
stated mission? Because it doesn't seem that that so much is 
what is driving the two of you in your testimony. It seems to 
me to be more that we shouldn't let the Afghanistan people down 
again, like we did when Russia was there. I'd just like to 
understand what motivates much of your testimony.
    Sergeant McGurk. Sir, I just want to clarify one point. 
When I say ``renewing a commitment,'' I'm not saying to send 
60,000 combat troops into Afghanistan. What I mean is more of a 
civil component.
    And this holistic approach, you need to get--or, we need to 
get human intelligence within Yemen, within Egypt, Syria, all 
the places where the madrassas are that these people are 
actually, you know, learning this hatred for the West.
    I think that Afghanistan, in the terms that I'm referring 
to as being the front where the war on terror is, this is where 
everybody is coming to fight. This is the--this is back before 
9/11, when Osama bin Laden enacted the planes mission. That's 
when he decided, with the help of some of his other 
counterparts and some of the other cells, decided to take down 
the Twin Towers. He said he wanted to draw the United States 
into fighting on his home turf, because, ``We beat the 
Russians, we can beat the United States.''
    I think we need to have more of a civil component within 
Afghanistan, along with using smart power, diplomatic 
approaches in addressing issues like the Swat Valley within 
Pakistan, but, at the same--same sense, like I said, we need to 
develop more of a robust human intelligence capability, because 
you're not going to--we could fight it all day long for the 
next 20 years in Afghanistan, and we're not going to--we're not 
going to defeat the Taliban or
al-Qaeda, because they're being recruited--they're being 
trained in other places and coming to fight us there.
    So, I would say, sir, that it needs to be a mix of a civil/
military operation. We need to somehow help the Afghan 
Government start something like a job corps program. I mean, 
you have, in the northeastern part of the country, the Afghan--
central Afghan Government banned any type of timber operations, 
because they were afraid of getting rid or stripping the 
country of its timber resources. And the southern part of the 
country, that's where you have, you know, 90 percent of the 
poppy crops being grown. We spend more time, along with the 
ANA, burning these crops. So, when you take two lifestyles away 
from a large group of the Afghan population, what's the next 
thing they're going to do, and what they know how to do? That's 
fight us.
    So, I think we need to get a larger civil component in 
there, less of a combat-troops component. Maybe they can act as 
a quick-reaction force or go into certain areas where there are 
hotbeds, like along the border with Pakistan, and try to root 
out the insurgency that way.
    I just think it needs to be a well-rounded and well-
thought-out mission with a mix of civil and military 
operations.
    Senator Corker. Thank you.
    Captain Moore. Thank you, sir. And I agree with much of 
what Sergeant McGurk said. And the idea that I also--I also 
don't feel that it's--these are isolated ideas of providing 
safety and security for the Afghan people and trying to make 
sure that Afghanistan is not a hotbed for al-Qaeda. I think 
those are actually very complementary ideas, because, without 
the safety and security being provided within Afghanistan, and 
without safety and security that--not only that we can help 
provide, but that the Afghans are really going to provide for 
themselves--not only will that be an area for al-Qaeda, to be 
able to grow and to flourish, but then, also, it's never going 
to provide any type of security or any type of growth for the 
Afghan people.
    I think part of my frustration, which has been throughout--
and I'm actually--I'm happy to see that it seems like the 
administration is really starting to take a new approach to 
it--is, for a while, we never had a clear mission about 
Afghanistan. You know, we weren't sure whether it was 
democracy. We weren't sure whether it was nation-building. We 
weren't sure if it was stability. We never had a clear belief 
as to why we were there. And that was also, not only 
frustrating for the American people, but also very frustrating 
for the soldiers. And it's very tough to build morale and help 
to keep morale up when you're not quite sure exactly what the 
mission is.
    I think we're starting to clarify that now. I think there's 
a much better understanding; whereas, as President Obama has 
clearly said, we're going to provide security, and then we're 
going to leave.
    So, I think understanding that, and then helping to kind of 
fill that in--so, What exactly does that mean? How exactly 
we're going to bolster development efforts? How are we going to 
get the State Department and USAID more involved in what's 
happening, particularly in the eastern and northeastern part of 
Afghanistan--is the way we're really going to add color to that 
larger statement.
    Senator Corker. Well, I'm glad you have a--with all due 
respect, a clear idea of what the strategy is, because I have 
no idea what it is, other than sending additional troops. So, 
if you could help me, I'd appreciate it. I have to tell you, 
I--what I've heard is that Afghanistan is not going to be a 
safe haven for al-Qaeda, and that's--so, we're going to double 
down with troops and resources. I don't know, I don't know that 
that clears up anything for me. So, since you have a clear 
idea, I'd love for you to expand on that some.
    Captain Moore. With--the clear idea is this, sir, is that, 
without--security needs to be tantamount to everything, because 
you cannot implement anything else within that region unless 
you can provide better security.
    Senator Corker. So, it sounds a lot like Iraq.
    Captain Moore. Well, no, no. It's not like--especially in 
this case. First of all, the parallels between Iraq and--I 
mean, sorry--the difference between Iraq and Afghanistan are 
stark. We're talking very different countries, very different 
regions, with very different histories.
    In Afghanistan, we're talking about a country that has 
literally been in a constant state of war for decades, and a 
sporadic state of war for centuries, an area that--and this is 
where the whole idea of understanding that clarity of mission, 
because this is an area that we've had Alexander the Great and 
Genghis Khan and the British Empire and the Russians all being 
involved. And there's two things that the Afghans believe--
firmly believe--about anytime foreign forces will enter their 
country. The first thing is that they're going to try to 
convert them and they're going to disrespect Islam. That's one. 
And the second thing they firmly believe is that soon they will 
be gone. And regardless of what is left behind, and regardless 
of what type of power vacuums are left behind, the foreign 
forces will leave.
    The point is this. By showing a commitment to that country, 
by showing a commitment--and, again, I think Sergeant McGurk 
made a great point--is that it's not just a military-component 
commitment; the military-component commitment is important, 
because providing that security is important, but it needs to 
be complementary with, What exactly is that going to do? 
Because if we can increase security aspects and increase 
security apparatus within the country, and get the extra, not 
only 17,000 troops, but 4,000 trainers, inside of the area, and 
allow the ANA and the ANP to build up, then we can actually 
start allocating other resources to make Afghanistan not a safe 
haven for al-Qaeda, but then also provide the security and 
safety and the future for the Afghan people, which will prevent 
Afghanistan from becoming a safe haven for
al-Qaeda.
    Senator Corker. I want to thank all of you again.
    And, Colonel, I thought your testimony was exceptionally 
good, and I really didn't have a lot of questions, as a result 
of that.
    And, Mr. Chairman, I thank you for having this hearing. And 
I hope that--I know that, you know, sometimes partisan issues 
end up coming into play on major issues like this, but I really 
appreciate your willingness to look at this issue. I hope we 
will dig a whole lot deeper. I just have to tell you, I'm--I 
have a--say, an average intelligence--I'm having difficulty 
connecting the dots, and I hope that we'll have additional 
hearings to help us do so more fully.
    The Chairman. Well, Senator Corker, let me just say to you 
that the testimony has been excellent, and I think the 
questions have been excellent, and it underscores this dilemma.
    I am so sympathetic, more so than many people may 
understand, because of the experience that many of us had in 
our generation, Colonel Bacevich, which was torn apart over a 
war that lacked leadership and definition and clarity and 
reality and truth and a whole bunch of things. And when I hear 
Sergeant McGurk say, ``We want to make sure that the honor that 
should be afforded us for our sacrificed service is there in 
the policy decisions you've made,'' that is exactly what 
brought me to that table, years ago.
    And when I flew into Iraq, a number of years ago, I won't 
forget the captain who was a pilot in the aircraft, a C-130, as 
we were going in, turned to me, and he said, ``Look, Senator, 
no matter what, just one thing I ask you, just make sure that, 
20 years from now, all of this was worth it for us.'' And I 
understand that sentiment.
    But, Colonel Bacevich has raised some very fundamental, 
larger questions that are almost bigger, in a sense, than your 
individual ability to want that relationship you built with 
somebody, that old man you met on the street. I understand 
that. You want that to be meaningful. And, they thought that we 
would just leave again, and so forth. Fact is, we are going to 
leave again, and they do know that--at some point. And the test 
here is how much can you achieve for them, and do you have to 
sometimes measure whether or not part of the reason they fight 
us is that we are there. And so, you have to balance this 
somehow and find a way to deal with some very tricky issues, 
including the intelligence piece of this. If you could get a 
different footprint somehow, so you had good intel, there are 
plenty of ways for the United States to prevent al-Qaeda from 
attacking us. And the question is, Do you have to have this 
massive expenditure and footprint and input in order to be able 
to achieve that goal, if that is the limit of your goal? If 
your goal is larger than that, in terms of nation-building and 
otherwise, that's a much more expensive and longer term 
proposition, but it also runs up full score against the 
propositions the Colonel put to us, appropriately, and others 
have written about, which is, Is it achievable?
    So, we've got some hard work to do, and we've got to do a 
lot of careful analysis here. And I know the administration is 
approaching this very carefully. Nobody's suggesting they're 
offering a guarantee here, but they're trying to make first 
steps to see if it is possible, needless to say, to transition 
to an ANP and an ANA that can stand up for themselves and take 
on that responsibility and sustain your rightful hope that that 
outcome will honor your sacrifice, which is what we want.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman. And thank you all 
for being here.
    The Chairman. Let me just say to everybody, we have a vote 
that is on; because it just started, we will have time to be 
able to conclude.
    Senator Shaheen. I will be very quick.
    But, I do want to thank you for being here, for your 
insights, and for your sacrifices for our country.
    You know, I--there's been a lot of discussion about the 
conduct of the war in Afghanistan, but I guess the real 
alternative is United States withdrawal. And what I'd like to 
ask you is what you think the impact of unilateral withdrawal 
from Afghanistan would be. And I guess I would ask you if you 
would begin, Colonel Bacevich.
    Colonel Bacevich. I think that the--there are 
alternatives--there are more alternatives than ``more of the 
same and then abject withdrawal.'' I think that there are 
courses that we could follow that would enable us to achieve 
what Senator Corker said was the purpose of the exercise, make 
sure that Afghanistan is not a safe haven for al-Qaeda, that 
would not necessarily entail the kind of investment of troops 
and resources that we've already undertaken and we're about to 
expand. There are other ways to achieve our purposes; it's not 
simply ``do what we're doing'' or ``abandonment.''
    And I think that the--an example of what might be an 
alternative would be that we recognize the tribal nature of 
Afghan politics, acknowledge that their tradition is not one in 
which authority is effectively exercised from Kabul, but it's 
effectively exercised, basically, in the outback, and to 
provide incentives to the tribal chiefs to govern their patch 
of earth in ways consistent with their interests. In other 
words, just don't let al-Qaeda in. Provide them incentives to 
do that. And where those incentives don't work, then perhaps it 
may be necessary for us to engage in some kind of a punitive 
action, not unlike what we're doing in Pakistan, to eliminate 
any elements of al-Qaeda that do find a way, whether working in 
the seams or not, to establish bases.
    So, I don't think the alternative is either ``do what we're 
doing'' or ``abandon the country.''
    Senator Shaheen. OK. Thank you. If I can ask each of you to 
respond to that.
    Sergeant Chase. With all due respect, sir, if you have 
suggestions on what could be done more in-depth, I think that's 
kind of what we're all here for, is to find out what are our--
what are our--what are the alternatives.
    Senator Shaheen. Right.
    Sergeant Chase. Personally, a blanket withdrawal from 
Afghanistan would be devastating to Muslim extremism in the 
world. It would send a message very clearly to the rest of the 
world and the rest of the extremists that they have not only 
won and defeated us in Afghanistan, but they've now--they would 
now gain momentum for their cause. That would be my fear.
    I'm not a policy person. I'm also not a scholar. But, 
pulling out of there would devastate Afghanistan, and, I think, 
the entire region. And just an example of that was when we left 
after the Soviets.
    Senator Shaheen. Thank you.
    Sergeant McGurk. It's kind of what I've been saying all 
along and what I said in my initial remarks. I think that, just 
to not even try, just a unilateral withdrawal, and then say, 
``Sorry,'' it's just not going to cut it. I honestly think that 
the type of vacuum that would be created, you would have more 
insurgents, more Taliban going across the Pakistan border. I 
think you'd have--you--to a degree, I think that you would kind 
of take away any legitimacy that the Pakistan Government has, 
currently; it would be completely gone. Pakistan is a nuclear 
state. And I think you would have a people that would be more 
prone--or, excuse me, more apt to allowing a regime like the 
Taliban into their country, because at least they provide a 
measure of security; whereas, we just decided to leave, and 
leave them to their own devices.
    As you can tell, I'm very passionate about this, from my 
experiences in Afghanistan.
    Senator Shaheen. I appreciate that.
    Sergeant McGurk. To not at least try--and I understand that 
many people say that we can't achieve any measure of success, 
or the type of success that we wanted to achieve when we 
initially went into Afghanistan, I completely understand that--
but, having been on the ground and seen firsthand the people 
and the culture--and, you know, granted it is a tribal culture 
that doesn't trust a central government--but, being on the 
ground, you--they're not a number to me; it's not, ``Oh, it's 
the Afghan people.'' It's not, ``This is just Afghanistan.'' 
These are real people I dealt with on a daily basis. And to 
just leave them and say, ``You know, we're really sorry. We 
screwed up by going into Iraq. We really can't afford to try to 
at least, to some measure, fix what we did in Afghanistan. 
We're leaving. Sorry.''--to me, that's very unacceptable.
    I grew up in a military family. I love this country 
wholeheartedly. I joined the military, not to become a weapon 
of war, but to be a deterrent to it. And I really think that we 
should--and I don't want to keep repeating myself, but I really 
think we should at least try to do something to help the Afghan 
people before we leave.
    Senator Shaheen. Thank you.
    Captain Moore.
    Captain Moore. I believe that an abrupt withdrawal from 
Afghanistan would not only be a tactical mistake, but also, 
more importantly, a strategic mistake. It would be primarily a 
tactical mistake because, again, you're giving up a primary 
front to a place that we committed to, to a people that we 
committed to, to a culture that we committed to. And primarily, 
on the strategic side, it would also send a message to the rest 
of the world that the United States can't stick, that, once the 
wave of any type of political pressure or any type of political 
will begins to wane, that, regardless of whatever commitments 
have been made, regardless of whatever intentions have been 
sought out, regardless of whatever speeches have been done, 
that the United States is not going to commit to seeing 
something through.
    Now, again, we need to be strategic about how we do that. 
And, again, I agree with Dr. Bacevich, where he said it's not, 
you know, ``more of the same'' or ``complete withdrawal.'' But, 
at the same time, we need to understand, not only the short-
term, but the long-term ramifications of the message that that 
sends to the rest of the world about where we are as a nation.
    Senator Shaheen. Thank you.
    Corporal Reyes.
    Corporal Reyes. I keep going back to my earlier statements. 
I don't think a complete withdrawal would be the answer, but I 
know a troop escalation's a huge mistake. You want to talk 
about a country with that many troops, that's a sign of poor 
intelligence. With stronger intelligence, there's no reason to 
occupy the country with that massive amount of troops. So, we 
need to strengthen our intelligence and then plan and then 
execute.
    Senator Shaheen. Thank you, to each of you, for your very 
compelling testimony.
    The Chairman. Thank you, Senator Shaheen.
    I want to thank everybody on this panel enormously. And let 
me just say, quickly, I completely agree with what Colonel 
Bacevich just said. As the conclusion of the panel, the option 
here is not, in my judgment, ``throw up your hands'' and 
``complete withdrawal,'' which would invite all kinds of 
repercussions and have significant negative consequences on our 
policy, in any number of ways. But, in addition to that, nor is 
it ``more of the same'' for the Obama administration, with whom 
we've been trying to work very closely.
    I completely agree with the observation about the 
tribalism. This is something that I have become more and more 
tuned into, the more I'm traveling now in the Middle East and 
in North Africa and so forth; it is just definitional, in terms 
of how we need to approach things. And we have not been 
thoughtful enough and sensitive enough in the past.
    We have to remember that the Soviets attacked and destroyed 
some of that infrastructure. They killed a lot of tribal 
chiefs. And the strength that used to be there has been 
somewhat diminished.
    But, of this I am convinced, the vast majority of Afghans 
do not want to be Taliban, and they don't buy into the 
extremist Taliban. There are a lot of Taliban for hire right 
now. And we need to understand that as we think through our 
approach. But, it has to be very thoughtful, very sensitive. I 
think the administration is working overtime to tune that in. 
We've met with General Petraeus, we've met with Ambassador 
Holbrooke, and others. There's a lot of thinking going on about 
how you empower entities outside of Kabul, how you deal with 
corruption, how we get around this and, frankly, heed a lot of 
the wisdom that was in Colonel Bacevich's testimony.
    So, there's a balance here, and that's what we're going to 
try to strike. I agree with Senator Corker, it has been 
woefully fought on the cheap, and stupidly in many ways, not 
from a military point of view, but the civilian leadership 
guidelines and possibilities were so constrained and predefined 
that the military folk on the ground have been operating under 
an unbelievable handicap, and we've lost enormous headway as a 
consequence of that.
    So, we're going to try to be as thoughtful as we can, as 
smart as we can. This is not the only hearing we're going to 
have on this, by far. And we have a lot of distance yet to go.
    This committee will exercise its oversight authority, and I 
will certainly do all I can to live up to the responsibility, 
as chair, to see that we thoroughly vet all of the 
possibilities and try to come up with the smartest policy 
possible.
    Colonel, I have to run and vote. I wanted to catch you for 
a moment, but I hope I can sit down with you when we get back 
to Massachusetts.
    Colonel Bacevich. Yes, sir, I'd enjoy that.
    The Chairman. We really appreciate everybody's testimony, 
each of you. I know this was not the first thing you trained 
for, so we're just hugely appreciative of the fact that you 
came here today. Each of you expressed your candid personal 
opinions. I know that's not always easy and, particularly in 
the case of several of you, very difficult on an emotional 
level. So, we're grateful to you. Thank you for your service, 
thanks for your testimony, thanks for your continued service. 
And we look forward to continued relationships with all of you. 
Thank you.
    We stand adjourned.
    [Whereupon, at 12:03 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
